U.S. Department of Education
Office of Inspector General


Semiannual Report
to Congress, No. 64
Office of Inspector General
Kathleen S. Tighe
Inspector General

May 2012

This report is in the public domain. Authorization to reproduce it in
whole or in part is granted. While permission to reprint this publication
is not necessary, the citation should be: U.S. Department of Education,
Office of Inspector General, Semiannual Report to Congress, No. 64.




                                Please Note: 

The Inspector General’s Semiannual Report to Congress, No. 64 is available on the 

ED/OIG Web site at www.ed.gov/offices/oig. 

Message to Congress

 On behalf of the U.S. Department of Education (Department) Office of Inspector
 General (OIG), I present this Semiannual Report on the activities and
 accomplishments of this office from October 1, 2011, through March 31, 2012.
 The audits, inspections, investigations, and related work highlighted in the report
 are products of our continuing commitment to promoting accountability,
 efficiency, and effectiveness in our oversight of the Department’s programs and
 operations.

 Accountability. Efficiency. Effectiveness. Oversight. These words seem to
 appear regularly on the front page of newspapers and are frequently mentioned
 on news programs across the country whenever the Federal Government is the
 topic of discussion. It is no surprise, as they are among the cornerstones and
 characteristics of good governance. When employed, they help ensure that
 government programs and operations are performing as intended and that
 government resources are responsibly managed. They promote integrity and
 careful decisionmaking. OIG is committed to good governance—our work triggers
 results and makes it clear that anyone who ignores the rules or abuses or misuses
 the taxpayer dollars entrusted to them will be held accountable for their unlawful
 actions. This commitment is evident in the work we completed over the last
 6 months. Our audits and inspections recommended needed improvements in the
 programs we examined and by the entities we reviewed, and our investigative
 work led to criminal actions against corrupt officials, unscrupulous contractors,
 and other people for stealing or otherwise misusing Federal funds. For example:

     	 Our audit found that the Department complied with the Improper
         Payments Elimination and Recovery Act of 2010. However, we also found
         that the Department’s estimates of improper payments were not always
         accurate; limitations existed in its methodologies for calculating improper
         payment rates; and the numbers, amounts, and percentages for two of its
         largest programs, the Pell Grant program and the Direct Loan program,
         were not always based on accurate or complete data.

     	 As discussed in this Semiannual Report, criminal charges were filed
         against 53 people for participating in Federal student aid “fraud rings”—
         large, loosely affiliated groups of criminals who exploit distance
         education programs in order to fraudulently obtain Federal student aid.

     	 Point Park University agreed to pay $1.4 million to settle allegations that
         the school violated rules pertaining to the Federal Supplemental
         Educational Opportunity Grant Program.

     	 Our inspection found that the Department provided no oversight of
         schools’ compliance with drug and alcohol abuse prevention program
         requirements for 12 years and that the oversight process it developed in
        2010 provided no assurance that schools were in compliance with
        requirements.

    	 Our audit of Saint Mary-of-the-Woods College determined that the school
        has been ineligible to participate in Federal student aid programs since
        2005 because at least half of its students were enrolled in ineligible
        correspondence courses and that the school should be terminated from
        participating in the Federal student aid programs and should return more
        than $42 million in student aid funds.

    	 The former superintendent of California’s El Centro Elementary School
        District was convicted on fraud charges involving some $400,000 in
        Federally-funded math and science program funds.

    	 Our audit found that the Department’s implementation of the Teacher
        Incentive Fund program did not effectively apply Congressional intent and
        its own internal guidance. Further, the Department funded applications
        that did not fully meet the priorities for the competitions and did not
        ensure that recipients met applicable requirements prior to making
        continuation awards.

    	 The owner of a grant writing company was sentenced to 6 years in prison
        and was ordered to pay a $60,000 fine for preparing and submitting
        fraudulent grant applications totaling more than $35 million for a youth
        program in California.

Below you will find more details on these actions, as well as summaries of the
19 reports we issued over the last 6 months, which identified nearly $44 million in
financial recommendations. Also during this reporting period, we closed
75 investigations of fraud and corruption involving Department programs and
operations and secured nearly $16 million in settlements, fines, restitutions,
forfeitures, seizures, recoveries, and savings.

In December, I was honored to be asked to lead the Recovery Accountability and
Transparency Board. In this role, I will ensure that there is effective oversight,
accountability, and transparency involving Recovery Act dollars. I remain,
however, fully committed to my responsibilities as the Inspector General of the
Department and will continue to spearhead efforts to help ensure that vital
Federal education funds reach the intended recipients and achieve the desired
results. In these tough economic times, America’s taxpayers deserve nothing less
from those of us tasked with keeping watch over their hard-earned investment.

I greatly appreciate the interest and support of this Congress, Secretary Duncan,
and Deputy Secretary Miller in our efforts. I look forward to working with you in
meeting the challenges and opportunities that lie ahead.




Kathleen S. Tighe
Inspector General
                              Table of Contents
Goal 1: Improve the Department’s ability to effectively and efficiently
        implement its programs to promote educational excellence and
        opportunity for all students.                                            1


Goal 2: Strengthen the Department’s efforts to improve the delivery of student
        financial assistance.                                                    11


Goal 3: Protect the integrity of the Department’s programs and operations by
        detecting and preventing vulnerabilities to fraud, waste, and abuse.     19


Goal 4: Contribute to improvements in Department business operations.            25


Annexes                                                                          31


Required Tables                                                                  33


Abbreviations and Acronyms Used in this Report                                   55
Goal 1: 	Improve the Department’s ability to
         effectively and efficiently implement
         its programs to promote educational
         excellence and opportunity for all
         students.
        Our first strategic goal addresses the core of our statutory mission—to promote the
        efficiency, effectiveness, and integrity of the U.S. Department of Education’s
        (Department) programs and operations. Work that the Office of Inspector General
        (OIG) conducted over the past 6 months in this area includes specific efforts related
        to the American Recovery and Reinvestment Act of 2009 (Recovery Act), as well as
        programs geared for kindergarten through 12th grade, established by statutes such
        as the Elementary and Secondary Education Act of 1965, as amended (ESEA).


                                                    Recovery Act
                                      In December, Inspector General Tighe was appointed by President Obama to chair
                                      the Recovery Accountability and Transparency Board (Recovery Board) through its
                                      statutory sunset in 2013. Inspector General Tighe takes on these duties while
                                      continuing to lead the OIG’s efforts, including our Recovery Act work. The OIG
                                      also continued to participate in an advisory capacity on the Department’s internal
                                      Recovery Act team and several Recovery Board work groups. During this reporting
                                      period, we continued the third phase of our Recovery Act work and initiated our
                                      fourth phase. In our third phase, we performed reviews at 22 school districts in
                                      21 States and the District of Columbia to provide a national perspective on how
                                      school districts used Recovery Act and Education Jobs funds (stimulus funds). This
                                      nationwide review looks to determine the extent that districts used or planned to
                                      use stimulus funds to stabilize budgets; provide new or expanded services to
                                      eligible students; or pursue new and innovative methods to improve schools, raise
                                      achievement, and implement other reforms. As part of this effort, we are also
                                      assessing whether districts would spend stimulus funds by the end of the
                                      respective grant periods, determining whether actual or planned uses of stimulus
                                      funds could result in unsustainable continuing commitments once the stimulus
                                      funds were no longer available, and identifying the factors that influenced how
                                      school districts spent or planned to spend stimulus funds. In our fourth phase,
                                      we are reviewing final Recovery Act expenditures at multiple local educational
                                      agencies (LEAs) in five States to determine whether they obligated and expended
                                      final Recovery Act funding on reasonable, allocable, and allowable activities in
                                      accordance with applicable requirements. We will also review Recovery Act
                                      closeout processes at the five State educational agencies (SEAs) and at selected
                                      LEAs. We will report the findings of these efforts once completed.

                                      During this reporting period, we completed several audits related to the Recovery
Audits of Recovery                    Act—an audit of Alabama’s use of Recovery Act funds; an audit of Saint Mary-of-
Act Funds                             the-Woods College’s administration of the Federal student aid programs (Saint
                                      Mary-of-the-Woods College received a portion of that funding after passage of the
                                      Recovery Act, which increased funding for the Pell Grant and Federal Work Study
                                      programs); and a review of the processes five SEAs used to award School
                                      Improvement Grant funds, most of which was awarded through the Recovery Act.

                                      Alabama’s Use of Recovery Act Funds
                                      Although we found that the entities reviewed generally used Recovery Act funds
                                      in accordance with applicable requirements, we identified internal control

2   Office of Inspector General Semiannual Report
weaknesses related to the Alabama State Department of Education’s (ALSDE)
award of Recovery Act funds to LEAs, cash management, and reporting
requirements. ALSDE did not have sufficient controls in place to ensure that its
School Improvement Grant (SIG) award selection process was fair and equitable,
as we identified an apparent conflict of interest. Specifically, we found that the
participation of ALSDE’s Federal Programs Director in the award process resulted
in an apparent conflict of interest because her husband’s employer was listed in
three LEA applications as a provider of SIG services. All three of the LEAs were
awarded SIG funds, totaling some $10 million for services provided by her
husband’s employer. We also found scoring discrepancies in the documentation
supporting the SIG selection process and noted that some scoring information was
missing. As a result, ALSDE may have awarded SIG funds to LEAs that would not
have been otherwise selected to receive the funds. ALSDE also erroneously made
a duplicate transfer of Recovery Act IDEA funds to the Mobile Public School
District, resulting in an improper payment of $1.4 million. In addition, we found
that ALSDE did not report accurate expenditure, vendor payment, and job data in
accordance with Recovery Act reporting requirements. We recommended that
ALSDE establish and implement systems of internal control to ensure the
independence of employees and contractors who participate in processes to
award competitive grants to LEAs; establish written policies and procedures
pertaining to draws received in error, improper payments, and the handling of
excess cash; and develop and implement policies and procedures to ensure the
accuracy of its current and future reporting. Although ALSDE officials did not
agree with all of our findings, they acknowledged the identified conditions and
stated that they were in the process of addressing all of our recommendations.

Saint Mary-of-the-Woods College
In our audit of the Saint Mary-of-the-Woods College’s administration of the
Title IV programs, we found that the school was not eligible to participate in
those programs and had not been eligible since at least July 2005 because
50 percent or more of its students were enrolled in correspondence courses.
Therefore, the college received more than $42 million that it was not eligible to
receive. According to Section 102(a)(3)(B) of the Higher Education Act of 1965, as
amended (HEA), an institution is not eligible to participate in the Title IV
programs if 50 percent or more of its students were enrolled in correspondence
courses during its latest complete award year. The college considered its
programs to be offered in either on-campus or telecommunications (distance
education) formats and did not consider any of its programs to be offered through
correspondence. We also identified instances of noncompliance with HEA
requirements governing award calculations, student eligibility, disbursements,
and return of Title IV aid. Specifically, the college incorrectly calculated Title IV
awards for students enrolled in correspondence courses, could not provide
documentation supporting its cost of attendance budgets, improperly disbursed
Title IV funds to students who should not have received the funds, did not return
all Title IV funds for students who never began attendance, did not return the
proper amounts of Title IV funds for students who unofficially withdrew, and did
not provide required notifications for disbursements of Title IV funds or provide
timely Federal Family Education Loan (FFEL) program exit counseling. We
recommended that the Federal Student Aid office terminate the college’s
participation in the Title IV programs and require the college to return more than

                                           Office of Inspector General Semiannual Report   3
                                      $42 million in Title IV funds to the Department and the appropriate FFEL program
                                      lenders. The college did not agree with most of our findings or recommendations.

                                      School Improvement Grants
                                      We audited SIG award processes at five SEAs and found that all five generally
                                      awarded funds to eligible schools. We reviewed SIG award processes at the
                                      Florida Department of Education, the Georgia Department of Education, the New
                                      York State Education Department, the Ohio Department of Education, and the
                                      Texas Education Agency. All five SEAs had plans to monitor each LEA’s
                                      implementation of the selected intervention models and monitor each LEA’s
                                      progress toward meeting the goals described in the application for each school.
                                      All five SEAs also appropriately allocated SIG funds to LEAs with schools having the
                                      greatest need for the funds. Three of the five SEAs (Florida, Georgia, and Texas)
                                      also allocated funds to LEAs with the strongest commitment to using the funds to
                                      raise student achievement. However, two SEAs did not always do so. In New
                                      York, applications for 2 of 12 schools in our sample (both in the Rochester City
                                      School District) did not include all required elements of their selected
                                      intervention models. Further, Rochester did not use SIG funds awarded for the
                                      two schools to benefit students attending those schools. Instead, Rochester used
                                      the funds for a new school as it was phasing out the two eligible schools. We also
                                      identified four additional Rochester schools that were eligible for SIG funds but
                                      were also being phased out so they did not receive SIG funds. In Ohio, although
                                      the SEA required each LEA to provide an assurance stating that it would use its SIG
                                      funds to fully and effectively implement an intervention model in each school
                                      that the LEA committed to serve, for 8 of 11 schools reviewed, the SEA did not
                                      ensure that the LEAs initially had plans to do so. We recommended that the
                                      Department instruct New York to improve its processes to ensure that all LEAs
                                      awarded funds in the future plan to fully and effectively implement the
                                      intervention model set forth in each selected school’s application and that funds
                                      will be used to increase the achievement of students attending those eligible
                                      schools. We also recommended that the Department ensure that Ohio
                                      implements its new procedure requiring LEAs to provide an outline of each
                                      school’s specific plans to implement all of the required elements of the selected
                                      intervention models before Ohio provides new or renewed SIG funding to LEAs. In
                                      addition, we recommended that the Department clarify its Final Requirements for
                                      School Improvement Grants and modify its SIG guidance. The Department agreed
                                      with some of our findings and recommendations.

                                      OIG investigators continued to examine allegations of waste, fraud, and abuse
Investigations                        involving Recovery Act funds over the last 6 months. Summaries of two of these
                                      investigative cases are below.

                                      City University of New York Employee Sentenced (New York)
                                      A former employee at the City University of New York Research Foundation, who
                                      was hired to work as an instructor in the In School Youth Prep for Success Program
                                      at Medgar Evers College in Brooklyn, was sentenced to serve 30 months in prison
                                      for attempting to defraud the school and the Department of Recovery Act funds.
                                      The former employee presented and attempted to have processed fraudulent
                                      Grant Award Notifications totaling more than $3 million. This case was referred
                                      to us by an alert Department employee who had recently attended a Recovery Act
                                      grant fraud awareness training provided by the OIG.

4   Office of Inspector General Semiannual Report
               Former Everglades University Financial Aid Director Sentenced
               (Florida)
               After pleading guilty to fraud, a former financial aid director at Everglades
               University was sentenced to serve a year and a day in prison, 3 years of supervised
               release, and 50 hours of community service. She was also ordered to pay nearly
               $93,000 in restitution. The former official used her position to embezzle more
               than $88,800 in student aid loan checks from students.




                           K–12 Programs
               With the significant increase in education funding that the States, SEAs, and LEAs
               are receiving through the Recovery Act and the Education Jobs Fund in addition to
               their annual allotments for kindergarten through 12th grade programs, effective
               oversight of and accountability for Federal education funds are even more vital.
               Work conducted over the last 6 months showed that the programs and entities we
               reviewed need improved oversight and accountability.

Audits of      During this reporting period, we completed an audit of the Department’s
               implementation of the Teacher Incentive Fund grant program and an audit that
Departmental   assessed the extent to which the Department’s high school programs were
Operations     duplicative.

               Department's Implementation of the Teacher Incentive Fund
               Grant Program
               We determined that the Department could improve the effectiveness of the
               Teacher Incentive Fund grant program (TIF) in the areas of program
               implementation, grant proposal evaluation and awarding processes, and program
               oversight. First, the Department did not always effectively apply Congressional
               intent and its own internal guidance in its implementation of the program.
               Specifically, we determined that the high-need schools definition and
               programmatic cost-sharing requirements applied during the initial TIF
               competitions were not consistent with the intent expressed through the
               applicable Congressional committee report and internal Departmental guidance.
               Second, the Department funded applications that did not fully meet the
               Department’s absolute priorities for the competitions. It also funded applications
               containing weaknesses that could be detrimental to program implementation or
               sustainability. Third, the Department did not always ensure that recipients met
               applicable requirements prior to making continuation awards or ensure that
               implementation of funded applications was consistent with recipients’ proposals.
               We also noted weaknesses in the processes established by the Department to
               assess program results. During the course of our audit, we found that the
               Department took some steps to help improve some of the weaknesses we
               identified. Additional improvements, however, were still necessary, including the
               need for the Department to develop and implement procedures to ensure that the
               intent of Congress and its own internal guidance are effectively considered and
               applied in the establishment of criteria applicable to discretionary grant
               competitions and to revisit the TIF program requirements considering legislative
               intent and other applicable criteria prior to the next competition and make any

                                                         Office of Inspector General Semiannual Report   5
                                      necessary changes. The Department disagreed with all of our findings and one of
                                      our recommendations.

                                      Potentially Overlapping High School Programs
                                      We found that although none of the 18 high school-related programs reviewed
                                      appeared to be duplicative, 6 programs (33 percent) appeared to overlap with at
                                      least one other program. We also noted that a number of those 18 programs,
                                      including the 6 that appeared to overlap, had been proposed for elimination
                                      and/or consolidation by the Department, partly due to concerns over duplication
                                      with other programs. Further, although the Department had collected
                                      performance data on the 18 programs reviewed, it had not collected data or
                                      established performance measures specifically related to the programs’
                                      effectiveness in reducing gaps between low-income and minority students and
                                      their peers in high school graduation and college access and success. We
                                      recommended that the Department continue to actively promote coordination
                                      among similar programs, continue to work with Congress to consolidate or
                                      eliminate programs that overlap one another and establish performance measures
                                      related to low-income and minority student performance with regard to high
                                      school graduation and college access and success rates in applicable programs.
                                      The Department agreed with all of our recommendations.

Audits of Grant                       OIG regularly conducts audits and reviews of SEAs, LEAs, and other grant
                                      recipients to determine whether those entities administer and use Department
Recipients                            funds as required by statute, regulations, and Department guidance. Below are
                                      the results of one such audit that was completed during this reporting period.

                                      New Jersey—Camden City Public School District
                                      In our audit of the Camden City Public School District’s (Camden) administration
                                      of non-salary-related Federal education funds, we found that Camden did not
                                      always comply with applicable laws and regulations for the expenditures we
                                      reviewed. Specifically, Camden’s accounting system did not accurately reflect its
                                      ESEA expenditures for FYs 2007 and 2008; it improperly charged about $373,000 in
                                      ESEA expenditures; it lacked supporting documentation for nearly $1.4 million in
                                      expenditures; it did not have an adequate inventory system to ensure that it
                                      properly managed equipment it purchased with ESEA funds; and it did not
                                      properly procure goods and services for purchases that exceeded the statutory bid
                                      threshold as required by State law.

                                      This was the third audit of Camden that we have conducted over the last 2 years,
                                      all of which identified significant internal control deficiencies that affected
                                      Camden’s ability to effectively and efficiently administer Federal education funds
                                      and programs. Because our cumulative work revealed that the Department has no
                                      assurance that Camden used Federal education funds for their intended purposes
                                      or safeguarded those funds against fraud, waste, and abuse, we recommended
                                      that the Department take appropriate actions to protect future Federal education
                                      funds awarded to Camden by working with New Jersey Department of Education
                                      to designate Camden as a high-risk grantee. We also recommended that the
                                      Department appoint a third party servicer to administer Camden’s Federal
                                      education funds and rescind Camden’s flexibilities to operate a schoolwide plan.
                                      The New Jersey Department of Education did not agree with all of our findings or
                                      recommendations.

6   Office of Inspector General Semiannual Report
                 Below are summaries of some of our significant investigations involving State and
Investigations
                 local school district officials and their contractors who abused and misused
                 Federal funds.

                 Schools and School Officials
                 Former Chief Executive Officer of Charter School Pled Guilty (Pennsylvania).
                 The former chief executive officer of the New Media Technology Charter School in
                 Philadelphia pled guilty to charges that she and the former president of the
                 school diverted more than $522,000 of New Media funds to other projects in order
                 to enrich themselves and to advance their personal business interests, including a
                 nonprofit private school they controlled and operated and other personal business
                 ventures.

                 Former El Paso Independent School District Official Pled Guilty (Texas). The
                 former associate superintendent for the El Paso Independent School District pled
                 guilty for his role in a bribery and fraud scheme. The former official accepted
                 bribes from a now-defunct school district contractor in exchange for his support
                 on a contract worth several million dollars. The bribes included cash, campaign
                 contributions, and kickbacks.

                 Former Executive Director of the Pennsylvania Northeastern Intermediate Unit
                 Indicted (Pennsylvania). The former official was indicted on charges of fraud,
                 theft, and money laundering. During his tenure, he allegedly converted
                 Northeastern Intermediate Unit funds and property for his personal use and that
                 of his family. He also allegedly created and ordered his employees to create false
                 travel vouchers and to perform personal services such as home maintenance,
                 secretarial services, planning and preparing for family events, and shopping for
                 himself and his family.

                 Former Superintendent of the El Centro Elementary School District Pled Guilty
                 (California). The former superintendent pled guilty to fraud involving Federal
                 grant funds for math and science programs. During his tenure, he fraudulently
                 arranged to hire an entity to evaluate a federally funded math and science
                 program for nearly $400,000. In return, he received $90,000 disguised as research
                 assistant payments. The former superintendent was not, however, a research
                 assistant on the grant and thus was not entitled to those funds.

                 Former Pontiac School District Assistant Superintendent Indicted (Michigan).
                 The former assistant superintendent was indicted on charges related to program
                 fraud and money laundering. He allegedly directed an employee to write a
                 $236,000 check to a business that he owned, which was deposited into an account
                 that he controlled, a portion of which he allegedly used for personal expenses.

                 Former Charles County Public Schools Title I Coordinator Sentenced
                 (Maryland). The former Title I coordinator was sentenced to serve 27 months in
                 prison and 36 months of supervised release. She was also ordered to pay more
                 than $115,300 in restitution for theft. The former official used Title I grant funds
                 to purchase technology items for herself, family, and friends, including
                 computers, video games consoles, portable media players, tablet computers, and
                 televisions.




                                                            Office of Inspector General Semiannual Report   7
                                       Four Jefferson Parish Public School System Employees Sentenced (Louisiana).
                                       Four former employees of Jefferson Parish Public School System were each
                                       sentenced for their roles in an embezzlement scheme. For more than 2 years,
                                       two of the former employees submitted fraudulent documents for themselves and
                                       the other co-conspirators to receive supplemental pay and stipends for various
                                       tutoring, testing, and remediation programs funded by Jefferson Parish Public
                                       School System, although none of them were certified teachers or qualified to
                                       perform those activities. The scheme’s two ringleaders were each sentenced to
                                       serve 6 months of home confinement and 5 years of probation. They were also
                                       ordered to pay more than $132,000 in restitution. Their two co-conspirators were
                                       sentenced to serve between 3 and 5 years of probation and were ordered to pay
                                       $9,700 and $11,800, respectively, in restitution.

                                       Chief of School Lunch Program Convicted (American Samoa). The former chief
                                       of the School Lunch Program was convicted on charges that he obstructed a
                                       Federal grand jury and law enforcement investigation into a bribery scheme. The
                                       scheme involved several officials and the owner and operator of a company that
                                       sold school bus parts to the Government. The officials arranged to order
                                       “phantom” bus parts that they never received and purchased parts at inflated
                                       prices in exchange for kickbacks from the company. The former official met with
                                       the vendor and told him to destroy evidence of their business transactions and to
                                       lie to law enforcement officials conducting the investigation into the scheme.

                                       Contractors
                                       Luzerne County School District Contractor Sentenced (Pennsylvania). The
                                       owner of an engineering firm was sentenced to 1 year in prison and 2 years of
                                       supervised release for making a corrupt payment to influence official action. He
                                       was also ordered to pay a fine of $250,000. The contractor paid cash bribes to a
                                       school board member in exchange for the board member’s support on lucrative
                                       school district contracts.

                                       Former Detroit Public Schools Board Candidate and Her Daughter Indicted
                                       (Michigan). A former Detroit Public Schools contract accountant and school board
                                       candidate, along with her daughter, a Detroit Public Schools teacher, were
                                       indicted on charges of fraud, conspiracy, and money laundering. The indictment
                                       alleges that between 2004 and 2008, the two obtained more than $530,000 from
                                       the school district when a sham company the two controlled placed orders for
                                       books and educational materials that were never provided.

                                       Grant Writer Sentenced in Fraud Case (California). The owner of Cross
                                       Resources, Inc., a grant writing company that assisted businesses in securing
                                       Federal and State grants, was sentenced to serve 6 years in prison and was
                                       ordered to pay a $60,000 fine for fraud. Contracted by the Indio Youth Task Force
                                       for grant writing services, the woman agreed to prepare and submit grant
                                       applications, often with forged and altered information, on behalf of the task
                                       force in exchange for 15 percent of the total amount received. As a result of her
                                       fraudulent actions, the Indio Youth Task Force would have received more than
                                       $35 million in State and Federal grant funds, of which she would have received
                                       more than $5.3 million.




8   Office of Inspector General Semiannual Report
OTHER ACTIVITIES
Participation on Committees, Work Groups, and Task Forces
Departmental Groups
       Department Recovery Act Metrics and Monitoring Team. OIG participates in an advisory capacity on this team
         that meets regularly to coordinate Recovery Act funds oversight efforts and develop reports for posting on the
         Recovery.gov Web site.

Inspector General Community
       Recovery Accountability and Transparency Board. In December, Inspector General Tighe was appointed as Chair
         of the Recovery Board. OIG staff members also participate in a work group composed of all of the OIGs that
         provide Recovery Act oversight and a subgroup focused on Recovery Act grant funds.

Federal and State Law Enforcement-Related Groups
       U.S. Department of Justice’s Financial Fraud Enforcement Task Force. The Department and OIG are charter
         members of this task force, established by Executive Order in November 2009. The OIG also participated in the
         following two working groups.

                    Recovery Act, Procurement, and Grant Fraud Working Group. The Inspector General co-chairs and
                      the OIG participates in this working group focused on improving efforts across the Government to
                      investigate and prosecute significant financial crimes involving Recovery Act funds.

                    Department of Justice Consumer Protection Working Group. OIG participates in this working group
                      composed of Federal law enforcement and regulatory agencies that works to strengthen efforts to
                      address consumer-related fraud.

       Northern Virginia Cyber Crime Working Group. OIG participates in a workgroup of various Federal, State, and
         local law enforcement agencies conducting cyber crime investigations in northern Virginia. The purpose is to
         share intelligence and collaborate on matters that may affect multiple agencies.

Federal and State Audit-Related Groups
       Association of Government Accountants Intergovernmental Partnerships for Management and Accountability.
         OIG participates in this partnership that works to open lines of communication among Federal, State, and local
         governmental organizations with the goal of improving performance and accountability.

       Interagency Coordination Group of Inspectors General for Guam Realignment. OIG participates in this group to
         provide input on education-related issues affecting the realignment of about 8,000 Marines and about
         9,000 dependents from Okinawa to Guam.




                                                                                 Office of Inspector General Semiannual Report   9
10   Office of Inspector General Semiannual Report
Goal 2: Strengthen the Department’s efforts to
        improve the delivery of student
        financial assistance.
        This goal addresses an area that has long been a major focus of our audit,
        inspection, and investigative work—the Federal student financial aid programs.
        These programs are inherently risky because of their complexity, the amount of
        funds involved, the number of program participants, and the characteristics of
        student populations. Our efforts in this area seek not only to protect Federal
        student aid funds from waste, fraud, and abuse, but also to protect the interests of
        the next generation of our nation’s leaders—America’s students. Summaries of the
        work we completed in this area over the last 6 months are provided below, along
        with information on our more significant investigations involving Federal student aid
        fraud.



                          Federal Student Aid Internal Operations
                                      As the office responsible for administering the student aid programs, the Federal
                                      Student Aid office (FSA) must conduct effective oversight of programs,
                                      operations, and participants to help protect Federal funds from waste, fraud, and
                                      abuse. Work we concluded over the last 6 months identified needed
                                      improvements in FSA’s oversight processes involving foreign medical school pass
                                      rates and its contracts with student loan servicers.

Audits and                            FSA Oversight of Foreign Medical Schools’ Pass Rates
                                      We found that improvements were needed in FSA’s oversight of foreign medical
Assessments                           school pass rates. FSA was not timely in taking appropriate actions against
                                      schools identified as having failed to submit the required pass rate data or meet
                                      the pass rate threshold, was inconsistent in its application of the methodology for
                                      calculating pass rates, and accepted United States Medical Licensing Examination
                                      pass rate data submissions from foreign medical schools that either were not
                                      complete or were not in the required format. As a result, FSA did not have
                                      assurance that Federal student loan funds were disbursed only to students who
                                      attended schools that were eligible to participate in the Federal student loan
                                      programs. We found that over the past year, FSA provided Federal student aid to
                                      students at six ineligible schools and that some or all of these students were likely
                                      to be ineligible to receive the aid. By providing funding to students attending
                                      ineligible schools, FSA failed to ensure that funds were directed only to students
                                      attending high-quality programs that would sufficiently prepare them to pass the
                                      United States Medical Licensing Examination and practice medicine in the United
                                      States. We recommended that FSA complete loss of eligibility actions for all
                                      schools identified as noncompliant as related to the pass rate requirement and
                                      develop and implement written policy and procedures that describe the process
                                      for monitoring the annual pass rate requirement, the methodology for calculating
                                      the annual pass rates, and the process for referring noncompliant schools for loss
                                      of eligibility actions. FSA stated that it would move quickly to implement our
                                      recommendations.




12   Office of Inspector General Semiannual Report
Title IV Servicers Capacity Assessment
The assessment of the capacity of Title IV Additional Servicers (TIVAS) to handle
servicing of all new Direct Loan Program loans and FFEL Program loan purchases
under the Ensuring Continued Access to Student Loans Act of 2008 (ECASLA) found
that although FSA was able to on-board the TIVAS, weaknesses were identified in
FSA’s management and oversight of the contracts. The assessment, performed on
our behalf by Ernst & Young, LLP, found the following.

   	 FSA did not document all of the assumptions used to forecast borrower
       volume and did not have a formal communication mechanism to notify the
       TIVAS of unexpected changes in borrower volumes.

   	 Although FSA did not expect volume to grow to the maximum of 50 million
       borrowers by 2014, each TIVAS indicated that it was unable to service the
       maximum volume without sufficient lead time to increase computer
       processing, staffing, and facilities.

   	 FSA defined the contract requirements at a very high level and detailed
       requirements were not provided until after the contract awards, resulting
       in the TIVAS having a short time frame to implement the changes needed
       to meet the requirements.

   	 FSA did not formally track the modifications to requirements or evidence
       of each TIVAS’ compliance with the requirements.

   	 FSA should have monitored the TIVAS’ contingency planning for back-up
       capabilities and servicing excess borrower volumes.

   	 FSA had not established baseline servicing standards for the TIVAS; such
       standards could proactively address performance issues.

   	 The metrics used for allocating borrower volume among the TIVAS are
       weighted equally but did not appear to be of equal importance.

   	 The schools surveyed were not based on a representative sample across
       school types (public, not-for-profit, and for-profit schools).

The assessment recommended that FSA improve its documentation of contract
requirements, establish baseline servicing standards, improve its oversight of the
TIVAS, improve the methodology for allocating borrower volumes, and improve
the on-boarding of additional servicers in the future. FSA agreed with some, but
not all, of the recommendations made in the report.



             Investigations
Identifying and investigating fraud and abuse in the Federal student financial
assistance programs has always been a top OIG priority. The following are
summaries of some of our more significant cases of student aid fraud conducted
over the last 6 months.




                                         Office of Inspector General Semiannual Report   13
Schools and School                    Point Park University Agrees to $1.4 Million Civil Fraud
                                      Settlement (Pennsylvania)
Officials
                                      Point Park University agreed to pay $1.4 million to settle allegations that it
                                      intentionally discriminated against certain classes of students in awarding Federal
                                      Supplemental Education Opportunity Grant Program funds. The University was
                                      alleged to have used a formula that purposely excluded commuter and part-time
                                      students from receiving funds that they were entitled to receive.

                                      Former Iona College Vice President Sentenced (New York)
                                      The former vice president was sentenced to time served in prison, 3 years of
                                      probation, and community service for embezzling more than $850,000 from the
                                      school. She was also ordered to pay more than $352,800 in restitution. From
                                      1999 to 2009, the former official submitted false vendor invoices and credit card
                                      bills for personal expenses to be paid by the school.

                                      Additional Crown College Officials Sentenced (Washington)
                                      In previous Semiannual Reports to Congress, we reported that the former vice
                                      president and the former financial aid director of the now-defunct Crown College
                                      were sentenced for their roles in a Federal student aid fraud scheme. During this
                                      reporting period, their co-conspirators—the former fiscal manager and the former
                                      admissions director—were sentenced. These former officials falsely represented
                                      themselves as students in order to receive Federal student aid. They did so
                                      believing that the school would be closed shortly after they received the aid and
                                      planned to apply for loan discharges once the school officially closed. When the
                                      school remained open, they attempted to conceal their activity by making it
                                      appear as though they were attending classes. As a result of their fraudulent
                                      efforts, the officials and others received more than $65,000 in Federal student aid
                                      they were not entitled to receive. The former officials were each sentenced to
                                      serve 3 months of home confinement and 3 years of probation, and they were
                                      ordered to pay $42,000 in restitution.

                                      Former Anthem Institute Employee Sentenced (New York)
                                      The former admissions representative was sentenced to serve 1 year of probation
                                      and was ordered to pay a $250 fine for fraud. The former employee forged high
                                      school diplomas and GED certificates in order to enroll students who did not meet
                                      standard eligibility requirements. As a result of her fraudulent actions,
                                      11 students received at least $73,000 in Federal student aid they were not
                                      entitled to receive.

Fraud Rings                           Fifteen People Indicted for Roles in Fraud Scheme
                                      (South Carolina)
                                      Fifteen people were indicted for conspiracy to commit student loan fraud. The
                                      scam’s presumed ringleaders allegedly obtained personally identifiable
                                      information from the other participants as well as other people, and enrolled
                                      them in online classes at the University of Phoenix, Grand Canyon University,
                                      Capella University, and other institutions, knowing that the individuals were not
                                      eligible for admission to the schools and that they did not plan to attend the
                                      classes. As a result of the alleged actions, more than $400,000 in Federal student
                                      aid was distributed to the scheme’s participants.



14   Office of Inspector General Semiannual Report
Leader of Identity Theft Ring, Five Others Sentenced
(Pennsylvania)
The ringleader of an identity theft scheme and five of his co-conspirators were
sentenced for their roles in a fraud scheme. They submitted false certifications
of employment, educational enrollments, and stolen identities to financial
institutions and student loan lenders to obtain Federal student aid funds they
were not entitled to receive. Sentences for the six people ranged from 30 months
in prison to 1 year of probation, and a total of $434,000 in restitution was
ordered.

Ringleader and Two Others Indicted for Roles in Fraud Scheme
(Wisconsin)
Three people, including the alleged ringleader, were charged in a 19-count
indictment with devising and participating in a scheme to fraudulently obtain
Federal student financial aid. From 2003 to 2010, the three allegedly used
personally identifiable information from more than 50 people to apply for and
receive Federal student aid at a number of Minnesota schools. The presumed
ringleader allegedly recruited people to participate in the scheme, submitting
their own personally identifiable information and that of others, which they stole
or otherwise improperly obtained. As a result of these alleged actions, the
participants received more than $400,000 in Federal student aid they were not
entitled to receive.

Twelve People Indicted for Roles in Fraud Scheme
(South Carolina)
Twelve people were indicted for their alleged involvement in a scheme to obtain
Federal student aid funds through the University of Phoenix and the Western
Governors University. The scam’s presumed ringleaders allegedly obtained
personally identifiable information from the other participants in order to enroll
them in the online classes, knowing that the individuals were not eligible for
admission to the schools and that they did not plan to attend the classes. As a
result of the alleged actions, more than $100,000 in Federal student aid was
distributed to the scheme’s participants.

Twelve People Indicted for Roles in Fraud Scheme (Mississippi)
A Federal Grand Jury indicted 12 people for their involvement in an alleged
scheme to obtain Federal student aid funds for purported online attendance at
Pikes Peak Community College in Colorado. According to the indictment, the
presumed ringleader allegedly recruited people to act as “straw” students—
submitting false admissions and financial aid applications to the College even
though they had no intention of attending the classes. The indictment also
alleges that the ringleader expected a cut of about $800 from the aid awarded to
each straw student. As a result of these fraudulent actions, the participants
allegedly received more than $52,000 in student loans and grants they were not
entitled to receive.

Four People Indicted for Roles in Fraud Scheme (California)
Four people were indicted for conspiring to commit student aid fraud. They
allegedly submitted false admissions and financial aid applications to Axia College


                                         Office of Inspector General Semiannual Report   15
                                      at the University of Phoenix and to Capella University on behalf of students who
                                      did not plan to attend either school. In some cases, they used stolen or
                                      wrongfully obtained personally identifiable information from people who did not
                                      know their identities would be used to apply for financial aid. As a result of these
                                      alleged actions, more than $200,000 in grants and loans were disbursed,
                                      $110,000 of which went directly to the four and their co-conspirators.

                                      Last Participants Sentenced for Roles in Fraud Scheme
                                      (California)
                                      In previous Semiannual Reports to Congress, we reported on actions taken against
                                      people who participated in a fraud scheme at the Los Rios Community College
                                      District, an accredited higher education district with campuses that include
                                      American River College, Cosumnes River College, and Sacramento City College.
                                      The scam involved people receiving Federal student aid for purported attendance
                                      at the schools when they had no intention of attending the schools. During this
                                      reporting period, the final two participants were sentenced for their roles in the
                                      scheme. Both participants were sentenced to 60 months of probation, one was
                                      ordered to pay more than $58,300 in restitution, and the other was ordered to
                                      pay $7,580 in restitution.

Other Individuals                     Woman Posing as Troy University Recruiter Indicted (Alabama)
                                      A woman was indicted for allegedly posing as a recruiter and offering to help
                                      three people gain admission to the school and receive student financial aid. She
                                      obtained their personally identifiable information and completed and submitted
                                      fraudulent admissions and financial aid application forms. She listed her own
                                      address on the forms in order to receive student aid refund checks. As a result of
                                      these alleged actions, the Department disbursed more than $18,400 in Federal
                                      student aid funds.

                                      Tax Preparers Sentenced (Arkansas)
                                      A couple that operated a tax return business were sentenced to prison and
                                      supervised release. They were also ordered to pay more than $800,000 in
                                      restitution and were prohibited from engaging in a tax preparation business in the
                                      future as a result of being found guilty of theft from several Federal agencies,
                                      including the Department. The couple completed and filed false tax returns for
                                      themselves and their clients; they underreported income and overstated
                                      deductions. They also made false statements on Free Application for Federal
                                      Student Aid applications for their daughters so they could obtain Federal student
                                      aid and grants that they were not entitled to receive.

                                      Father and Son Sentenced (Michigan)
                                      A father and son were sentenced for their roles in conspiring to defraud a number
                                      of Federal programs, including Federal student aid programs. They falsely
                                      represented their income and assets on various application forms in order to
                                      receive Federal benefits they were not entitled to receive. The father was
                                      sentenced to serve 5 years in prison, 3 years of supervised release, and 100 hours
                                      of community service. He was also ordered to pay more than $658,600 in
                                      restitution. His son was sentenced to 8 months in prison and 3 years of supervised
                                      release. He was also ordered to pay more than $165,300 in restitution.



16   Office of Inspector General Semiannual Report
                                    Tax Manager Sentenced (New Hampshire)
                                    A tax manager for companies in Massachusetts was sentenced to 3 years in prison
                                    and 3 years of home confinement. He was also ordered to pay nearly $752,000 in
                                    restitution for fraud. While employed by a medical supply company, the man
                                    created false invoices on behalf of various entities to generate tax payments to
                                    the Massachusetts and New Hampshire Departments of Revenue and the Vermont
                                    Department of Taxation. After the tax payments were made, the man contacted
                                    the payees and claimed the payments were erroneous and requested repayment.
                                    He used this scheme to generate funds for his own personal use, including
                                    $100,000 to pay off his student loans. He used similar tactics with other
                                    companies, causing the State tax agencies to provide refunds totaling more than
                                    $497,000 directly to him.




OTHER ACTIVITIES
Participation on Committees, Work Groups, and Task Forces
     OIG-FSA Risk Project. OIG staff work with FSA staff to identify risks and reduce fraud and abuse in Federal student
          aid programs.

        Department of Education Policy Committees. OIG staff participate in an advisory capacity on these committees,
          which were established to discuss policy issues related to two rounds of negotiated rulemaking: one for student
          loan regulations and another for teacher preparation regulations.

Special Presentations
    2011 FSA Fall Conference.      The Inspector General addressed nearly 7,000 student aid administrators, sharing with
          them information on OIG operations and the issues we plan to look into in 2012. This was the first time an IG had
          delivered an address at the conference. The OIG Assistant Inspector General for Investigations also presented at
          the conference, participating in a panel discussion on distance education fraud.

Review of Legislation, Regulations, Directives, and Memoranda
     Dear Colleague Letter on Distance Education Fraud Rings. OIG provided suggestions to the Department’s letter to
          Financial Aid Administrators on distance education fraud. The letter was drafted in response to recommendations
          made in an OIG investigative program advisory report issued in 2011.

        Dear Colleague Letter on Valid High School Diplomas. OIG provided technical suggestions to the Department’s
          letter to Financial Aid Administrators on the eligibility of students who received student financial assistance in a
          prior award year without having a valid high school diploma. We suggested clarifications to instructions for schools
          to report ineligible disbursements or possible fraud to FSA or OIG.

        Code of Honor for Educational Institutions Serving Service Members and Veterans. OIG provided technical
          suggestions on a proposal for the Secretaries of Defense and Veterans Affairs to establish a Code of Honor for
          educational institutions receiving Federal military and veteran educational benefits, which the Departments of
          Education, Defense, and Veterans Affairs would apply to new agreements with educational institutions for services
          for veterans and service members.




                                                                                   Office of Inspector General Semiannual Report   17
18   Office of Inspector General Semiannual Report
Goal 3: 	Protect the integrity of the
         Department’s programs and operations
         by detecting and preventing
         vulnerabilities to fraud, waste, and
         abuse.
        Our third strategic goal focuses on our commitment to protect the integrity of the
        Department’s programs and operations. Through our audit and inspection work, we
        identify problems and propose solutions to help ensure that programs and
        operations are meeting the requirements established by law, and that federally
        funded education services are reaching the intended recipients—America’s students.
        Summaries of our work in this area, as well as summaries of our criminal
        investigations involving Department grantees, their subrecipients and contractors,
        and other people who abused Department funds, are provided below.



                                              Audit-Related Efforts

Compliance                            Department’s Compliance With Improper Payments Requirements
                                      Although we found that, for the programs reviewed, the Department complied
                                      with applicable requirements of the Improper Payments Elimination and Recovery
                                      Act of 2010 (IPERA) and the Office of Management and Budget’s (OMB) Circular
                                      A-123, Appendix C, Parts I and II, we also identified areas in need of
                                      improvement. We reviewed the Department’s FY 2011 improper payment
                                      activities involving the ESEA, Title I, Part A programs; the Direct Loan program;
                                      the Federal Pell Grant program; and the FFEL program. We found that the
                                      Department’s reporting of its improper payment data was not always accurate
                                      and complete and limitations existed in its estimated improper payment rate
                                      methodology for the ESEA, Pell, and Direct Loan programs; we also identified
                                      issues with the availability and completeness of the calculation of the estimated
                                      improper payment rate for the Pell Grant program. We found that the numbers,
                                      amounts, and percentages reported for the Pell and Direct Loan programs were
                                      not always based on accurate or complete data, and although the Department was
                                      in the process of implementing plans to reduce and recapture improper payments,
                                      it needs to continue these efforts. Based on these findings, we recommended
                                      that the Department consider revising its methodologies to improve the accuracy
                                      and completeness of the data used in its calculations, develop corrective actions
                                      to reduce certain improper payments in the Direct Loan program, update its
                                      analysis for determining whether payment recapture audits of all grant and loan
                                      programs would be cost-effective in FY 2012, and develop an estimated improper
                                      payment rate for the FFEL program for FY 2012. The Department concurred with
                                      our findings and recommendations.

                                      Department’s Process for Ensuring Compliance With Drug and
                                      Alcohol Abuse Prevention Program Requirements
                                      Our inspection of the Department’s process for ensuring compliance by
                                      institutions of higher education (IHEs) with the Drug and Alcohol Abuse Prevention
                                      Program requirements of the HEA and related regulations found that the
                                      Department performed no oversight for 12 years and that the oversight process it
                                      developed in 2010 provided no assurance that IHEs were in compliance. The
                                      Department’s Office of Postsecondary Education (OPE) was responsible for
                                      ensuring IHE compliance beginning in 1989 to June 2010. We could not draw a


20   Office of Inspector General Semiannual Report
            conclusion on the appropriateness of OPE’s oversight from 1989 through 1998 due
            to a lack of available evidence. In 1998, after FSA was created as a Performance-
            Based Organization, the Secretary did not delegate responsibility for this program
            to either FSA or OPE. OPE was formally delegated this responsibility in 2007;
            however, the corresponding memorandum for the delegation stated that the
            responsibility had remained in OPE despite the inadvertent omission. We
            concluded that OPE performed no oversight activities from 1998 through 2007,
            and despite the formal delegation in 2007, OPE continued to perform no oversight
            activities. In June 2010, oversight responsibility was delegated to FSA where we
            found that although FSA had developed an oversight process, it provided no
            assurance that IHEs were in compliance with requirements. We found that this
            was due to lack of documentation supporting IHE compliance, failure of FSA
            reviewers to fully understand the requirements, and information not being
            included in the program review report where the program reviewers identified
            noncompliance by IHEs. We also found that IHEs that did not participate in
            Title IV, HEA programs were not covered by FSA’s oversight process even though
            they are covered by the Drug and Alcohol Abuse Prevention Program. We
            recommended that FSA adequately document its review of IHE compliance with
            program requirements, report identified cases of IHE noncompliance, and develop
            a process to ensure that IHEs that received Federal funds but do not participate in
            the Federal student aid programs are in compliance with the requirements. FSA
            agreed with our findings and recommendations.


Oversight   Department’s Process to Identify and Monitor High-Risk Grantees
            Our inspection did not identify any issues with the Department’s processes for
            identifying, designating, and monitoring high-risk/at-risk formula grantees but
            found that the processes had not been formalized. For discretionary grantees,
            the Department had developed new processes for identifying and monitoring high-
            risk grantees; however, those processes had not been fully implemented at the
            time of our review, thus we could not draw a conclusion on their effectiveness.
            We recommended that the Department formalize its formula grant processes to
            ensure consistency in identifying and monitoring high-risk grantees and monitor
            whether the processes for both formula and discretionary grantees are effective.
            The Department generally concurred with our results and recommendations.


Contracts   Department’s Controls Over EDUCATE Contract Costs
            We found that improvements were needed in the Department’s controls relating
            to cost management of the Education Department Utility for Communications,
            Applications, and Technology Environment (EDUCATE) contract. Specifically, the
            Department did not

               	 establish a complete and accurate baseline of costs related to operations
                   being transitioned from the government-owned, contractor-operated
                   information technology environment to the contractor-owned, contractor-
                   operated environment;

               	 adequately document its calculations of anticipated cost savings over the
                   life of the contract; or

               	 implement an oversight structure that emphasized cost control.



                                                     Office of Inspector General Semiannual Report   21
                                      We also found that the Department’s actual costs for four of the eight
                                      (50 percent) EDUCATE contract line item numbers varied significantly from
                                      projected costs during the first 3 years of the EDUCATE contract, which may limit
                                      the Department’s ability to meet projected savings. As a result of these issues,
                                      the Department’s ability to assess EDUCATE cost savings and efficiencies is
                                      hindered. Further, the Department may not always identify opportunities to
                                      reduce costs, hold individuals accountable for cost performance in relation to
                                      initial expectations, and seek to assess and address cost performance variances
                                      where applicable. As of June 22, 2011, the Department had incurred
                                      approximately $151 million in expenses for the EDUCATE contract compared to
                                      the approximately $136 million projected for the same period at the onset of the
                                      contract, an increase of approximately $15 million (11 percent). To correct the
                                      weaknesses identified, we made a number of recommendations, including that
                                      the Department develop and implement appropriate controls to ensure that
                                      acquisition planning provides for the preparation and documentation of complete
                                      and adequate data by which to effectively evaluate the future performance of
                                      contracts in relation to stated goals, formally define and emphasize roles and
                                      responsibilities for monitoring the contract’s performance with respect to the cost
                                      saving objective of the contract, and retain documentation for all information
                                      technology costs incurred under the EDUCATE environment to ensure that
                                      comparisons can be made regarding cost savings with any future information
                                      technology service contracts that may be awarded. The Department concurred
                                      with our recommendations.


                                                     Investigations
                                      Our investigations into suspected fraudulent activity by Federal education
                                      grantees and vendors have led to the arrest and conviction of a number of people
                                      for theft or misuse of Federal funds. Below are a few examples of our work in
                                      this area over the last 6 months.

                                      Former Southern University IT Director Sentenced (Louisiana)
Schools and School
                                      The former official was sentenced to a year and a day in prison and 3 years of
Officials                             probation for using his position at the school to commit fraud. He was also
                                      ordered to pay more than $157,000 in restitution. Together with an associate
                                      professor who has been indicted, the former official formed shell companies
                                      purportedly offering computer equipment. They then initiated the purchase of
                                      equipment from those companies for the school, but the school never received
                                      the equipment as ordered.


Program Participants Two Leaders of Nonprofit Organization Indicted (Illinois)
                                      The director and a member of the Board of Directors of the Beacon Street Gallery
                                      and Performance Company were charged with fraudulently obtaining and
                                      misapplying 21st Century Community Learning Center funds. The indictment
                                      alleges that from May 2004 through June 2010, the two submitted nine grant
                                      applications that contained false statements about the intended and actual use of
                                      the grant funds. They allegedly received at least $1 million as a result, about
                                      $400,000 of which they used for their personal benefit, including payment of
                                      personal credit card bills, household expenses, automobile payments, apartment


22   Office of Inspector General Semiannual Report
                    rental expenses, and personal travel expenses. The two are also alleged to have
                    fraudulently received a salary for teaching an after school program at three
                    Chicago elementary schools when they did not do so.

                    Actions Taken Against Vocational Rehabilitation Program Officials
                    and Volunteers (North Dakota)
                    In our last Semiannual Report, we reported that eight people were indicted for
                    their roles in an alleged embezzlement scheme involving family members,
                    employees, and volunteers of the Spirit Lake Vocational Rehabilitation Program.
                    During this reporting period, six of the people pled guilty to embezzling more than
                    $84,000 in program funds, which they used for personal expenditures such as
                    household appliances and goods, groceries, car repairs, and utilities.

                    Former Louisiana State Representative Sentenced (Louisiana)
Other Individuals
                    A former State Representative and New Orleans City Councilmember was
                    sentenced to 7 years in prison and 3 years of supervised release, and she was
                    ordered to repay about $1.1 million in restitution for violating the Conspiring to
                    Violate the Racketeer Influenced and Corrupt Organizations or RICO Act.
                    Together with the sister, brother, and niece of a former U.S. Congressman, the
                    former State Representative diverted Federal and State grant money received by
                    nonprofit and for-profit organizations that they controlled to their personal bank
                    accounts and used the funds for personal expenses.

                    Former E-Rate Company President Sentenced (Alabama)
                    The former president of E-Rate Consulting Services who pled guilty in 2011 to
                    embezzling funds intended for information technology services in school districts
                    in Arkansas, Florida, Idaho, Massachusetts, Minnesota, Nebraska, New Hampshire,
                    North Carolina, Ohio, Pennsylvania, Tennessee, and Texas was sentenced to serve
                    51 months in prison and 36 months of supervised release. He was also ordered to
                    pay nearly $882,000 in restitution. The company was in the business of assisting
                    schools and libraries in qualifying for E-Rate program funding. The former
                    president received E-Rate checks from the Government intended for the schools
                    and libraries, but instead of forwarding the checks to them, he deposited the
                    checks into his personal account and used the funds largely for personal expenses.

                    River Forest Community School District Consultant Sentenced
                    (Indiana)
                    The owner and director of the Project Managers, Inc., an information technology
                    consulting company specializing in assisting entities in qualifying for E-Rate
                    program funding, was sentenced to 27 months in prison and 3 years of supervised
                    release for committing fraud. She was also ordered to pay more than $213,000 in
                    restitution. She admitted to defrauding the E-Rate program and the River Forest
                    Community School District by submitting false invoices and information to the
                    E-Rate program, which caused the district to submit false information to the
                    E-Rate program, and accepting payments for products and services not provided.




                                                              Office of Inspector General Semiannual Report   23
24   Office of Inspector General Semiannual Report
Goal 4: Contribute to improvements in
        Department business operations.
        Effective and efficient business operations are critical to ensure the Department
        effectively manages its programs and protects its assets. Our fourth strategic goal
        speaks to that effort. OIG work in this area seeks to help the Department
        accomplish its objectives by ensuring the reliability, integrity, and security of
        Department data; the Department’s compliance with applicable policies and
        regulations; and that the Department is effectively, efficiently, and fairly using the
        taxpayer dollars with which it has been entrusted. Below are summaries of our
        efforts in this area over the last 6 months, including criminal investigative cases
        involving Department employees and contractors.

                                             Financial Management
                                      One of the purposes of the Chief Financial Officers Act of 1990 is to provide for
                                      improvement in agency systems of accounting, financial management, and
                                      internal controls to ensure the issuance of reliable financial information and to
                                      deter fraud, waste, and abuse of Government resources. The Act requires an
                                      annual audit of agency financial statements. These audits are intended to help
                                      improve an agency’s financial management and controls over financial reporting.
                                      Below are the results of our FY 2011 financial audits, as well as the results for
                                      other financial-related statutory reviews.

                                      In November 2011, OIG transmitted the final audit reports covering the
Financial Statement                   Department’s and FSA’s FY 2011 and FY 2010 financial statements. Both the
Audits                                Department and FSA received unqualified (clean) opinions on their financial
                                      statements; however, the Report on Internal Control for both audits noted
                                      modified repeat significant deficiencies relating to credit reform estimation and
                                      financial reporting processes and to controls surrounding information systems.
                                      Although the audits, both of which were performed by an independent public
                                      accountant (IPA), disclosed no instances of noncompliance or other matters that
                                      were required to be reported under “Government Auditing Standards” or OMB
                                      Bulletin No. 07-04, as amended, they did note that the Department’s financial
                                      management systems did not substantially comply with certain systems
                                      requirements of the Federal Financial Management Improvement Act because of
                                      control weaknesses surrounding information systems. The Department and FSA
                                      concurred with the findings and recommendations in the reports.

                                      In November 2011, the OIG transmitted the final audit report covering the
Special Purpose                       Department’s FY 2011 and FY 2010 special purpose financial statements. The
Financial Statements                  Department received a clean opinion on the statements. There were no material
                                      weaknesses in internal controls and no instances of noncompliance reported.

                                      As required by Section 1704(d) of Title 21, U.S. Code, and in accordance with the
Drug Control Funds                    Office of National Drug Control Policy circular, “Drug Control Accounting,” we
                                      authenticated the Department’s accounting of FY 2011 drug control funds and
                                      related performance data by expressing a conclusion on the reliability of each
                                      assertion made in the Department’s accounting and performance reports. Based
                                      on our review, nothing came to our attention that caused us to believe that
                                      management’s assertions contained in the Department’s detailed accounting and
                                      performance reports were not fairly stated in all material respects.

26   Office of Inspector General Semiannual Report
          Information Technology Security Management
                 The E-Government Act of 2002 recognized the importance of information security
                 to the economic and national security interests of the United States. Title III of
                 the E-Government Act, the Federal Information Security Management Act of 2002
                 (FISMA), requires each Federal agency to develop, document, and implement an
                 agency-wide program to provide information security for the information and
                 information systems that support the operations and assets of the agency,
                 including those provided or managed by another agency, contractor, or other
                 source. It also requires the Inspectors General to perform independent
                 evaluations of the effectiveness of information security control techniques and to
                 provide assessments of the agency's compliance with FISMA. Below is the result of
                 our FY 2011 FISMA review.

                 We assessed the Department’s (1) information security policy and procedures,
FISMA Review     (2) enterprise-level information security controls, (3) management of information
                 security weaknesses, and (4) system-level security controls. We identified
                 weaknesses in each of these areas. In addition, our review of 5 controls areas—
                 risk management, configuration management, remote access management,
                 identity and access management, and contingency planning—contained repeat
                 findings from OIG reports issued during the prior 3 years. Without adequate
                 management, operational, and technical security controls in place, the
                 Department’s systems and information are vulnerable to attacks that could lead
                 to a loss of confidentiality caused by unauthorized access to data and to a
                 possible loss of integrity through data modification or limited availability from
                 unauthorized access and excessive use of system resources. We made
                 18 recommendations to assist the Department in establishing and sustaining an
                 effective information security program. The Department concurred with most of
                 our findings and recommendations.


                              Investigations
                 Accountability applies to everyone, but especially to people in positions of trust
                 within the Department: Federal employees and contractors entrusted with
                 stewardship of taxpayer dollars and administering Federal education programs and
                 services. Below are summaries of three cases involving Department employees and
                 one case involving a contractor that were completed during this reporting period.

Department 
     FSA Loan Analyst Sentenced (Georgia)
                 The FSA employee was sentenced to 10 years in prison and 5 years of supervised
Employees 
      release for collecting child pornography using his government computer. Our
                 investigation revealed the employee was able to bypass Web filtering software on
                 the Department’s network and obtain child pornography from the Internet. OIG
                 agents, alerted to the employee’s suspicious on-line activities by network
                 administrators, seized the man’s work computer and found child pornography and
                 evidence of his browsing history that showed he had frequented foreign Web sites
                 that trafficked in child pornography. OIG agents later conducted a search warrant
                 at his home, where they found additional child pornography and other obscene
                 images. The Department removed the employee.


                                                          Office of Inspector General Semiannual Report   27
                                      FSA Program Specialist Sentenced for Theft (Maryland)
                                      The employee was sentenced in St. Mary’s County Court to 18 months in prison
                                      and 2 years of probation for theft. From 2007 to 2009, the employee used the
                                      stolen identification of another person to obtain more than $3,000 in credit from
                                      Lendmark Financial Services. The Department removed the employee.

                                      Office for Civil Rights Employee Sentenced for Fraud (Missouri)
                                      An employee in the Office for Civil Rights was sentenced in Platte County Court to
                                      2 years of probation for fraudulently obtaining hydrocodone, a controlled
                                      substance. To receive a prescription, she misrepresented to a dentist that she
                                      was not taking any medication. From 2007 to 2011, the employee received at
                                      least 334 prescriptions from 100 prescribers, including at least 183 prescriptions
                                      for narcotic pain medication. This resulted in Federal Employees Health Benefits
                                      Plan payouts of more than $10,275 in pharmaceutical claims and more than
                                      $125,700 in medical claims. The Department removed the employee.


Contractors                           Two People Sentenced for Stealing Student Data From ECMC
                                      (Minnesota)
                                      Two people were sentenced for their roles in stealing two safes from ECMC, a
                                      guaranty agency of Federal student loans. The safes contained computer disks
                                      that held personally identifiable information of more than 3 million student loan
                                      borrowers. The individuals discarded the safes and computer discs in a dumpster
                                      in Minneapolis shortly after the theft after realizing the safes did not contain
                                      money. The two were sentenced to serve between 21 and 24 months in prison
                                      and were each ordered to pay more than $6,475 in restitution.


                                       Non-Federal Audit Activities
                                      The IG Act requires that the Inspectors General take appropriate steps to ensure
                                      that any work performed by non-Federal auditors complies with Government
                                      Auditing Standards. To fulfill these requirements, we perform a number of
                                      activities, including conducting quality control reviews of non-Federal audits,
                                      providing technical assistance, and issuing audit guides to help independent public
                                      accountants performing audits of participants in the Department’s programs.

Quality Control                       OMB Circular A-133 requires entities, such as State and local governments,
                                      universities, and nonprofit organizations that expend $500,000 or more in Federal
Reviews                               funds in 1 year, to obtain an audit, referred to as a single audit. Additionally, for-
                                      profit institutions and their servicers that participate in the Federal student aid
                                      programs and for-profit lenders and their servicers that participate in the FFEL
                                      program are required to undergo annual audits performed by IPAs in accordance
                                      with audit guides issued by the OIG. These audits assure the Federal Government
                                      that recipients of Federal funds comply with laws, regulations, and other
                                      requirements that are material to Federal awards. To help assess the quality of
                                      the thousands of single audits performed each year, we conduct quality control
                                      reviews (QCRs) of a sample of audits. During this reporting period, we completed
                                      31 QCRs of audits conducted by 30 different IPAs, or offices of firms with multiple
                                      offices. We concluded that 22 (71 percent) were acceptable or acceptable with
                                      minor issues, and 9 (29 percent) were technically deficient.



28   Office of Inspector General Semiannual Report
OTHER ACTIVITIES
Participation in Committees, Work Groups, and Task Forces
Departmental Groups
      Department of Education Senior Assessment Team. OIG participates in an advisory capacity on this team, which
        provides oversight of the Department’s assessment and reports on internal controls and provides input to the
        Senior Management Council concerning the overall assessment of the Department’s internal control structure, as
        required by the Federal Managers’ Financial Integrity Act of 1982, and OMB Circular A-123, “Management’s
        Responsibility for Internal Control.”

      Department of Education Investment Review Board and Planning and Investment Review Working Group. OIG
        participates in an advisory capacity in these groups that review information technology investments and the
        strategic direction of the information technology portfolio.

      Department Human Capital Policy Working Group. OIG participates in this working group, which meets monthly
        to discuss issues, proposals, and plans related to human capital management.

Federal Government
      Government Accountability and Transparency Board. Inspector General Tighe was appointed to serve on this
        board. This board is looking at whether the transparency and accountability work of the Recovery Board can be
        used to oversee all Federal funding.

Inspector General Community
      Council of Inspectors General on Integrity and Efficiency (CIGIE). OIG staff play an active role in CIGIE efforts.
        Inspector General Tighe is a member of CIGIE’s Audit Committee, Investigations Committee, and the Interagency
        Coordination Group for Guam Realignment. She is also Vice Chair of the Information Technology Committee. In
        addition, Inspector General Tighe is a member of the Suspension and Debarment Working Group, which is a
        subcommittee of the Investigations Committee. OIG staff also participate in the Assistant Inspector General for
        Investigations Committee, the Subcommittee for Investigations of the Information Technology Committee, the
        Cyber Security Work Group, the Inspections and Evaluations Working Group, and CIGIE’s Federal Audit Executive
        Council’s Professional Development Committee, and co-chair the Federal Audit Executive Council’s Financial
        Statement Committee. OIG also participates in the Federal Audit Executive Council’s Financial Statement Audit
        Committee, the Council of Counsels to the Inspectors General, and the CIGIE New Media Working Group. OIG
        staff also participated in the following CIGIE-related activities:

                   New Auditor Training. During this reporting period, the OIG led coordination of one session of CIGIE-
                     sponsored Introductory Auditor Training. The training provided entry-level IG auditors with the
                     concepts, practices, skills, and standards that Federal Government auditors apply in their work.

                   Financial Statement Audit Network. OIG staff chair this governmentwide working group that
                     identifies and resolves key issues concerning audits of agency financial statements and provides a
                     forum for coordination with the Government Accountability Office (GAO) and the Treasury on the
                     annual audit of the Government’s financial statements.

                   CIGIE/Government Accountability Office Annual Financial Statement Audit Conference. OIG staff
                     chair the Planning Committee for the annual conference that covers current issues related to
                     financial statement audits and related standards.

                   Cloud Computing Working Group. OIG participated in this IG-community group that was tasked with
                     developing clauses for inclusion in cloud computing contracts to ensure that OIGs have adequate
                     access for the purposes of audits and criminal investigations.




                                                                                 Office of Inspector General Semiannual Report   29
 Federal and State Audit-Related Groups and Entities
         Chief Financial Officers Council Federal Reporting Model Work Group. OIG staff act in an advisory capacity to
           this work group, which focuses on developing and implementing revisions to the Federal financial reporting model
           in order to better deliver financial information that taxpayers and decisionmakers need.

         Comptroller General’s Advisory Council on Government Auditing Standards. OIG staff serve on this council,
           which provides advice and guidance to the Comptroller General on government auditing standards.

         Department of Defense OIG Financial Statement Audit Advisory Committee. OIG staff participate in this
           committee, which makes recommendations to help resolve accounting and auditing issues related to the
           Department of Defense OIG’s financial reporting and the financial statement audit, the system of internal
           controls, and compliance with laws and regulations that could have a material effect on the financial statements.

         Intergovernmental Audit Forums. OIG staff chair and serve as officers of a number of intergovernmental audit
           forums, which bring together Federal, State, and local government audit executives who work to improve audit
           education and training and exchange information and ideas regarding the full range of professional activities
           undertaken by government audit officials. OIG staff chair both the Midwestern and the Southeastern Forums, and
           they serve as an officers on the Southwestern Forum and the New Jersey-New York Forum.

         Interagency Working Group for Certification and Accreditation. OIG participates in this working group, which
           exchanges information relating to Federal forensic science programs that share intergovernmental responsibilities
           to support the mission of the National Science and Technology Council’s Subcommittee on Forensic Science.

         Interagency Fraud and Risk Data Mining Group. OIG participates in this group sharing best practices, raising
           awareness, and offering a forum to evaluate data mining and risk modeling tools and techniques to detect
           fraudulent patterns and emerging risks.

         AICPA Government Audit Quality Center’s Single Audit Roundtable. OIG staff responsible for single audit policy
           and quality participate in this discussion group semiannually. The group consists of members of the Federal
           government involved in all aspects of single audits, and State and local government auditors and members of the
           public accounting profession who perform single audits. The participants discuss recent or anticipated changes in
           single audit policy, such as the Compliance Supplement to OMB Circular A-133, new auditing standards, and issues
           of audit quality found in recent quality control reviews.

Reviews of Legislation, Regulations, Directives, and Memorandum
     Subpoena Testimony. OIG provided technical comments to CIGIE on proposed legislation to provide authority for
           IGs to subpoena testimony of certain witnesses.

         Government Ethics. OIG provided comments on proposed legislation to amend the Ethics in Government Act of
           1978, noting our opposition to add a subparagraph (B) to section 402(e)(2) of the Act to require agency Inspectors
           General to report to the Office of Government Ethics as soon as they have determined that there is reason to
           believe that there has been a violation of the conflicts-of-interest laws.

         Suspension and Debarment. OIG provided a technical comment on the proposed rule relating to suspension and
           debarment.




30   Office of Inspector General Semiannual Report
Annexes
Annex A. Contract-Related Audit Products with Significant Findings
The following is provided in accordance with Section 845 of the National Defense Authorization Act for Fiscal
Year 2008, which requires each Inspector General to include information in its Semiannual Reports to Congress
on final contract-related audit reports that contain significant findings.

Report Number: ED-OIG/A19L0003                                   Date Issued: 3/29/2012

Subject: Department’s Controls Over EDUCATE Contract Costs

Finding: We found that improvements were needed in the Department’s controls relating to cost management of the
EDUCATE contract, as the Department did not establish a complete and accurate baseline of costs related to operations
being transitioned from the Government-owned, contractor-operated information technology environment to the contractor-
owned, contractor-operated environment; adequately document its calculations of anticipated cost savings over the life of
the contract; or implement an oversight structure that emphasized cost control. As a result, the Department’s ability to
assess EDUCATE cost savings and efficiencies was hindered.




Annex B. Peer Review Result
Title IX, Subtitle I, Sec. 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law
No. 111-203) requires the Inspectors General to disclose the results of their peer reviews in their Semiannual
Reports to Congress.

No peer reviews were conducted during this reporting period.




32   Office of Inspector General Semiannual Report
Required Tables
Reporting Requirements of the Inspector General Act, as amended
                                                                Requirement
           Section                                                                                           Table Number
                                                                (Table Title)

5(a)(1) and 5(a)(2)            Significant Problems, Abuses, and Deficiencies                                    N/A

5(a)(3)                        Uncompleted Corrective Actions                                                     1
                               Recommendations Described in Previous Semiannual Reports to Congress on
                               which Corrective Action Has Not Been Completed

5(a)(4)                        Matters Referred to Prosecutive Authorities                                        6
                               Statistical Profile Fiscal Year 2011
                               (October 1, 2011, through March 31, 2012)

5(a)(5) and 6(b)(2)            Summary of Instances where Information was Refused or Not Provided                N/A

5(a)(6)                        Listing of Reports                                                                 2
                               Audit, Inspection, Evaluation, and Other Reports and Products on Department
                               Programs and Activities (October 1, 2011, through March 31, 2012)

5(a)(7)                        Summary of Significant Audits                                                     N/A

5(a)(8)                        Questioned Costs                                                                   3
                               Audit, Inspection, and Evaluation Reports with Questioned Costs

5(a)(9)                        Better Use of Funds                                                                4
                               Audit, Inspection, and Evaluation Reports with Recommendations for Better
                               Use of Funds

5(a)(10)                       Unresolved Reports
                               Unresolved Audit, Inspection, and Evaluation Reports Issued Prior to              5-A
                               October 1, 2011
                                                                                                                 5-B
                               Summary of Audit, Inspection, and Evaluation Reports Issued During the
                               Previous Reporting Period Where Management Decision Has Not Yet Been Made

5(a)(11)                       Significant Revised Management Decisions                                          N/A

5(a)(12)                       Significant Management Decisions with which OIG Disagreed                         N/A

5(a)(13)                       Unmet Intermediate Target Dates Established by the Department Under the           N/A
                               Federal Financial Management Improvement Act of 1996




34   Office of Inspector General Semiannual Report
Table 1: Significant1 Recommendations Described in Previous Semiannual
         Reports to Congress on which Corrective Action Has Not Been
         Completed
Section 5(a)(3) of the IG Act, as amended, requires identification of significant recommendations described in
previous Semiannual Reports on which management has not completed corrective action.

                                                                                                         Number of
                                Report Title                                      Date of                Significant
       Report                                                                                         Recommendations              Projected
                         (Prior Semiannual Report            Date Issued        Management
       Number                                                                                                                     Action Date
                          (SAR) Number and Page)                                 Decision
                                                                                                     Open       Completed

AUDIT REPORTS

Federal Student Aid (FSA)

A11J0006               Data Protection Controls              9/29/2010           12/13/2010            6             18           10/30/2012
                       Over FSA’s Virtual Data
                       Center (SAR 61, page 33)

A17K0002               Financial Statement Audits            11/15/2010           1/7/2011             2             5             1/18/2013 
                       FY 2010 and FY 2009-FSA
                       (SAR 62, page 24)
1
    This table is limited to OIG internal audit reports of Departmental operations because that is the only type of audit in which the Department
    tracks each related recommendation through completion of corrective action.




OIG Product Web Site Availability Policy. OIG final issued products are generally considered to be public documents accessible on OIG’s Web
site unless sensitive in nature or otherwise subject to Freedom of Information Act exemption. Consistent with the Freedom of Information
Act, and to the extent practical, OIG redacts exempt information from the product so that nonexempt information contained in the product
may be made available on the OIG Web site.




                                                                                              Office of Inspector General Semiannual Report    35
Table 2: Audit, Inspection, Evaluation, and Other Reports and Products on
         Department Programs and Activities
         (October 1, 2011, through March 31, 2012 )
Section 5(a)(6) of the IG Act, as amended, requires a listing of each report completed by OIG during the
reporting period.

                                                                  Questioned
                                                                     Costs1
 Report                                                 Date                   Unsupported       Number of
                             Report Title                          (Includes
 Number                                                Issued                     Costs2      Recommendations
                                                                 Unsupported
                                                                     Costs)

AUDIT REPORTS

FSA

A05K0012       Saint Mary-of-the-Woods College’s      3/29/12    $42,362,291                          19
               Administration of the Title IV
               Programs

A17L0002       Financial Statement Audits             11/15/11                                        12
               Fiscal Years 2011 and 2010
               Federal Student Aid

A19L0004       Federal Student Aid’s Oversight of     1/30/12                                         5
               Foreign Medical School Pass Rates

Office of the Chief Financial Officer (OCFO)

A03M0001       U.S. Department of Education’s         3/15/12                                         11
               Compliance with the Improper
               Payments Elimination and Recovery
               Act of 2010 for Fiscal Year 2011
               (FSA is also designated as an action
               official)

A17L0001       Financial Statement Audits             11/15/11                                       12
               Fiscal Years 2011 and 2010
               U.S. Department of Education

A17L0003       Financial Statement Audits for         11/15/11                                      None
               Fiscal Years 2011 and 2010
               U.S. Department of Education Special
               Purpose Financial Statements

Office of the Chief Information Officer (OCIO)

A11L0003       The U.S. Department of Education’s     10/18/11                                        18
               Compliance with the Federal
               Information Security Management Act
               for Fiscal Year 2011 (FSA is also
               designated as an action official)

A19L0003       Department’s Controls Over EDUCATE     3/29/12                                         7
               Contract Costs (OCFO is also
               designated as an action official)

Office of the Deputy Secretary (ODS)

A19K0013       Potentially Overlapping High School    12/1/11                                         6
               Programs



36   Office of Inspector General Semiannual Report
                                                                    Questioned
  Report                                                 Date     Costs1 (Includes    Unsupported           Number of
                          Report Title
  Number                                                Issued     Unsupported           Costs2          Recommendations
                                                                      Costs)

Office of Elementary and Secondary Education (OESE)

A02K0014      Camden City Public School District’s      3/6/12      $1,585,2043         $1,269,021                18
              Administration of Non-Salary Federal
              Education Funds

A04K0007      Alabama: Use of Funds and Data           2/15/12                                                    7
              Quality for Selected American
              Recovery and Reinvestment Act
              Programs (OCFO, OSERS, and the
              Implementation and Support Unit are
              also designated as action officials)

A05L0002      School Improvement Grants: Selected      3/29/12                                                    4
              States Generally Awarded Funds Only
              to Eligible Schools

A19I0007      Department’s Implementation of the       12/30/11                                                   9
              Teacher Incentive Fund Grant
              Program

INSPECTION REPORTS

FSA

I13L0002      The Department of Education’s            3/14/12                                                    4
              Process for Ensuring Compliance by
              Institutions of Higher Education With
              the Drug and Alcohol Abuse
              Prevention Program Requirements

ODS

I13K0002      U.S. Department of Education’s            3/9/12                                                    2
              Process to Identify and Monitor High-
              Risk Grantees

OTHER REPORTS AND PRODUCTS

FSA

S15L0001      Consulting Report Title IV Additional    12/15/11                                                   19
              Servicers Capacity Assessment
              (Special Project) Note: This report

              contains sensitive data. Public 

              distribution requires prior approval.


OESE

A02L0005      Closure of Office of Inspector           12/13/11                                                 None
              General Audit of East Ramapo School
              District (Audit Closure Letter)

B19M0001A     Office of Inspector General’s            2/14/12                                                  None
              Independent Report on the
              U.S. Department of Education’s 

              Performance Summary Report for 

              Fiscal Year 2011, dated 

              February 8, 2012 (Attestation 

              Report)


                                                                             Office of Inspector General Semiannual Report   37
                                                                                      Questioned
                                                                                         Costs1
     Report                                                              Date                           Unsupported           Number of
                                    Report Title                                       (Includes
     Number                                                             Issued                             Costs2          Recommendations
                                                                                     Unsupported
                                                                                         Costs)

Office of Planning, Evaluation, and Policy Development (OPEPD)

B19M0001           Office of Inspector General’s Independent           1/31/12                                                     None
                   Report on the U.S. Department of
                   Education’s Detailed Accounting of Fiscal
                   Year 2011 Drug Control Funds, dated
                   January 24, 2012 (Attestation Report)

TOTALS                                                                               $43,947,4954        $1,269,021                153
1
    As defined by the IG Act, as amended, questioned costs are identified during an audit, inspection, or evaluation because of (1) an alleged
    violation of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds;
    (2) such cost not being supported by adequate documentation; or (3) the expenditure of funds for the intended purpose being unnecessary
    or unreasonable. OIG considers that category (3) of this definition would include other recommended recoveries of funds, i.e., recovery of
    outstanding funds and/or revenue earned on Federal funds, or interest due the Department. During this reporting period, no OIG report was
    issued identifying a better use of funds.
2
    As defined by the IG Act, as amended, unsupported costs are costs that, at the time of the audit, inspection, or evaluation, were not
    supported by adequate documentation. These amounts are also included as questioned costs.
3
    Figure includes $316,183 of questioned cost and $1,269,021 of unsupported cost (A02K0014).
4
    Figure includes $42,678,474 of questioned cost and $1,269,021 of unsupported cost.



Description of Non-Audit Report Products
Attestation Reports convey the results of attestation engagements performed within the context of their stated scope and objective(s).
Attestation engagements can cover a broad range of financial and nonfinancial subjects and can be part of a financial audit or a performance
audit. Attestation engagements shall be conducted in accordance with American Institute of Certified Public Accountants (AICPA) attestation
standards, as well as the related AICPA Statements on Standards for Attestation Engagements.
Audit Closure Memoranda/Letters are used to notify the audited entity of OIG’s decision to terminate the audit without issuing an audit
report.
Inspections are analyses, evaluations, reviews or studies of the Department’s programs. The purpose of an inspection is to provide
Department decisionmakers with factual and analytical information, which may include an assessment of the efficiency and effectiveness of
their operations, and vulnerabilities created by their existing policies or procedures. Inspections may be conducted on any Department
program, policy, activity, or operation. Typically, an inspection results in a written report containing findings and related recommendations.
Inspections are performed in accordance with quality standards for inspections approved by the Council of Inspectors General for Integrity and
Efficiency.
Special Projects are those by which OIG staff may perform work that is not classified as an audit, attestation, inspection, or any other type of
alternative product. Depending on the nature and work involved in the special project, the special project may result in a report issued
outside OIG. Information presented in the special project report varies based on the reason for the special project (for example, response to
congressional inquiry, or other evaluation and analysis). The report may contain suggestions.




38     Office of Inspector General Semiannual Report
Table 3: Audit, Inspection, and Evaluation Reports with Questioned or
         Unsupported Costs1
Section 5(a)(8) of the IG Act, as amended, requires for each reporting period a statistical table showing
the total number of audit and inspection reports, the total dollar value of questioned and unsupported
costs, and responding management decision.

                                                                                         Questioned Costs2
                                                                      Number                 (Includes                Unsupported3 Costs
                                                                                         Unsupported Costs)

A.           For which no management decision has been                   47                 $583,564,214                  $364,318,499
             made before the commencement of the
             reporting period

B.           Which were issued during the reporting                       2                  $43,947,495                   $1,269,021
             period

             Subtotals (A + B)                                           49                 $627,511,709                  $365,587,520

C.           For which a management decision was made                     9                 $256,097,686                  $124,413,844
             during the reporting period.

                (i) Dollar value of disallowed costs                                        $256,097,686                  $124,413,844
                (ii) Dollar value of costs not disallowed                                        $0                            $0

D.           For which no management decision was made                   40                 $371,414,023                  $241,173,676
             by the end of the reporting period
1
    None of the products reported in this table were performed by the Defense Contract Audit Agency. 

2
    “Questioned costs” is defined in Table 2.

3
    “Unsupported costs” is defined in Table 1. These amounts are also included in questioned costs. 





                                                                                             Office of Inspector General Semiannual Report   39
Table 4: Audit, Inspection, and Evaluation Reports with Recommendations
         for Better Use of Funds1
Section 5(a)(9) of the IG Act, as amended, requires for each reporting period a statistical table showing the
total number of audit, inspection, and evaluation reports and the total dollar value of recommendations that
funds be put to better use by management.

                                                                                     Number                       Dollar Value

A.           For which no management decision has been made before                       2                        $18,200,000
             the commencement of the reporting period

B.           Which were issued during the reporting period                               0                              $0

             Subtotals (A + B)                                                           2                        $18,200,000

C.           For which a management decision was made during the
             reporting period:
                (i) 	Dollar value of recommendations that were agreed to                 0                              $0
                      by management;
                (ii) 	Dollar value of recommendations that were not                      0                              $0
                      agreed to by management

D.           For which no management decision was made by the end of                     2                        $18,200,000
             the reporting period
1
    None of the products reported in this table were performed by the Defense Contract Audit Agency, and no inspection or evaluation reports
    identifying better use of funds were issued during this reporting period.




40 	 Office of Inspector General Semiannual Report
Table 5-A: Unresolved Audit, Inspection, and Evaluation Reports Issued
           Prior to October 1, 2011
Section 5(a)(10) of the IG Act, as amended, requires a listing of each report issued before the commencement
of the reporting period for which no management decision had been made by the end of the reporting period.
Summaries of the audit and inspection reports issued during the previous SAR period follow in Table 5-B.

                                                                                          Total
                                     Report Title                          Date                            Number of
Report Number                                                                           Monetary
                            (Prior SAR Number and Page)                   Issued                        Recommendations
                                                                                        Findings

NEW SINCE LAST REPORTING PERIOD

AUDIT REPORTS

ODS

A02K0009        Milwaukee Public Schools: Use of Funds and Data           4/21/11                                4
                Quality for Selected Recovery Act Programs (OESE and
                OSERS are also designated as action officials) (SAR 63,
                page 36)

                Current Status: ODS/Implementation and Support
                Unit (ODS/ISU) informed us that the draft program
                determination letter (PDL) is in the review process.
                Office of Special Education and Rehabilitative
                Services/Office of Special Education Programs
                (OSERS/OSEP) informed us that it is developing a PDL.

A04K0006        South Carolina Governor’s Office: Use of Funds and        8/23/11        $8,2871                 2
                Data Quality for Selected American Recovery and
                Reinvestment Act Programs (OESE is also designated
                as an action official) (SAR 63, page 36)

                Current Status: ODS/ISU informed us that it is
                currently working to resolve this audit.

A07K0002        Missouri: Use of and Reporting on Selected Recovery       6/7/11                                 4
                Act Program Funds (OCFO and OESE are also
                designated as action officials) (SAR 63, page 36)

                Current Status: ODS/ISU informed us that the
                auditee responded to request for additional
                documentation in 3/12 and that a PDL is being
                developed.


A09K0001        Utah: Use of Funds and Data Quality for Selected          5/13/11        $62,111                 16
                Recovery Act Programs (OESE and OSERS are also
                designated as action officials) (SAR 63, page 37)

                Current Status: ODS/ISU informed us that it is
                currently working with OESE to resolve the audit.
                OSERS/OSEP informed us that it is developing a PDL.

A09K0002        California: Use of Funds and Data Quality for Selected    4/28/11        $23,407                 9
                Recovery Act Programs (OESE and OSERS are also
                designated as action officials) (SAR 63, page 37)

                Current Status: ODS/ISU informed us that it is
                currently working with OESE to resolve the audit.
                OSERS/OSEP informed us that it is developing a PDL.




                                                                            Office of Inspector General Semiannual Report   41
                                                                                           Total
                                           Report Title                        Date                      Number of
Report Number                                                                            Monetary
                                  (Prior SAR Number and Page)                 Issued                  Recommendations
                                                                                         Findings

OESE

A02J0002             Camden City Public School District’s Administration of   6/6/11    $15,057,565         15
                     Federal Education Funds (OSERS is also designated as
                     an action official) (SAR 63, page 37)

                     Current Status: OESE informed us that resolution
                     activities are in process. OSERS/OSEP informed us
                     that it is developing a PDL.

A02K0011             Camden City Public School District’s Administration of   5/4/11     $413,716            6
                     its Supplemental Educational Services Program (The
                     Office of Innovation and Improvement is also
                     designated as an action official) (SAR 63, page 37)

                     Current Status: OESE informed us that resolution
                     activities are in process.

A04K0005             South Carolina: Use of Funds and Data Quality for        4/20/11                        9
                     Selected Recovery Act Programs (OSERS is also
                     designated as an action official) (SAR 63, page 37)

                     Current Status: OESE informed us that resolution
                     activities are in process. OSERS/OSEP informed us
                     that it is developing a PDL.

A05K0005             Illinois: Use of Funds and Data Quality for Selected     6/9/11     $22,4982            8
                     Recovery Act Programs (ODS/ISU,OESE, and OSERS are
                     also designated as action officials) (SAR 63, page 36)

                     Current Status: OESE informed us that resolution
                     activities are in process. OCFO/Post Audit Group
                     (PAG) informed us that it issued its PDL on 12/5/2011.
                     OSERS/OSEP informed us that it is developing a PDL.

OSERS

A06K0003             Louisiana: Use of Funds and Data Quality for Selected    4/11/11    $388,815            5
                     Recovery Act Programs (OESE and ODS are also
                     designated as action officials) (SAR 63, page 37)

                     Current Status: OSERS/OSEP informed us that it is
                     developing a PDL.

REPORTED IN PREVIOUS SARs

AUDIT REPORTS

FSA

A02H0007             Technical Career Institutes, Inc.’s Administration of    5/19/08     $6,458            13
                     the Federal Pell Grant and FFELP (SAR 57, page 25)

                     Current Status: FSA informed us that it is currently
                     working to resolve this audit.




42   Office of Inspector General Semiannual Report
                                                                                          Total
                                     Report Title                          Date                            Number of
Report Number                                                                           Monetary
                            (Prior SAR Number and Page)                   Issued                        Recommendations
                                                                                        Findings

A03I0006        Special Allowance Payments to Sallie Mae’s Subsidiary,    8/03/09     $22,378,905                3
                Nellie Mae, for Loans Funded by Tax-Exempt
                Obligations (SAR 59, page 41)

                Current Status: The Department’s Audit
                Accountability and Resolution Tracking System
                (AARTS) shows the FSA’s administrative stay was
                approved by OCFO on 3/16/2012.

A04B0019        Advanced Career Training Institute’s Administration of    9/25/03      $7,472,583                14
                the Title IV HEA Programs (SAR 47, page 13)

                Current Status: FSA informed us that it is currently 

                working to revolve this audit in AARTS.


A04E0001        Review of Student Enrollment and Professional             9/23/04      $2,458,347                7
                Judgment Actions at Tennessee Technology Center at
                Morristown (SAR 49, page 14)

                Current Status: FSA informed us that the draft audit
                determination/PDL is currently under review.

A05G0017        Capella University’s Compliance with Selected             3/7/08        $589,892                 9
                Provisions of the HEA and Corresponding Regulations
                (SAR 56, page 25)

                Current Status: FSA informed us the draft audit
                determination/PDL is currently under review.

A05I0011        Special Allowance Payments to the Kentucky Higher         5/28/09      $9,018,400                4
                Education Student Loan Corporation for Loans Made or
                Acquired with the Proceeds of Tax-Exempt Obligations
                (SAR 59, page 41)

                Current Status: AARTS shows that FSA’s
                administrative stay was approved by OCFO on
                3/16/2012.

A05I0014        Ashford University’s Administration of the Title IV HEA   1/21/11        $29,036                 13
                Programs (SAR 62, page 24)

                Current Status: FSA informed us that it is currently 

                working to resolve this audit.


A0670005        Professional Judgment at Yale University                  3/13/98        $5,469                  3
                (SAR 36, page 18)

                Current Status: FSA informed us it is waiting on
                outcome of Secretary’s decision of school’s appeal of
                Professional Judgment finding for Saint Louis
                University before it can resolve this audit.

A0670009        Professional Judgment at University of Colorado           7/17/98        $15,082                 4
                (SAR 37, page 17)

                Current Status: FSA informed us that it is waiting on
                outcome of Secretary’s decision of school’s appeal of
                Professional Judgment finding for Saint Louis
                University before it can resolve this audit.




                                                                            Office of Inspector General Semiannual Report   43
                                                                                          Total
                                           Report Title                        Date                     Number of
Report Number                                                                           Monetary
                                  (Prior SAR Number and Page)                 Issued                 Recommendations
                                                                                        Findings

A06D0018             Audit of Saint Louis University’s Use of Professional   2/10/05    $1,458,584          6
                     Judgment from July 2000 through June 2002 (SAR 50,
                     page 21)

                     Current Status: AARTS shows the FSA’s
                     administrative stay was approved by OCFO on
                     1/27/2012. FSA informed us that it is waiting on
                     Secretary’s decision on school’s appeal of this audit
                     which pertains to a Professional Judgment finding.

N0690010             Inspection of Parks College’s Compliance with Student   2/9/00     $169,390            1
                     Financial Assistance Requirements (SAR 40, page 18)

                     Current Status: FSA informed us that the final audit
                     determination/PDL is currently in the review process.

OCFO

A09H0020             California Department of Education Advances of          3/9/09     $728,6513          10
                     Federal Funding to LEAs (SAR 58, page 31)

                     Current Status: OCFO/PAG informed us that it is in
                     the process of resolving audit findings 1 and 2.

A09I0010             Center for Civic Education’s Administration of the We   11/20/09   $5,938,537         30
                     the People Program and Cooperative Civic Education
                     and Economic Education Exchange Program (Office of
                     Safe and Drug-Free Schools (OSDFS) also designated as
                     an action official) (SAR 60, page 38)

                     Current Status: OCFO/PAG informed us that it is
                     currently developing a draft PDL.

ODS

A02K0005             Use of Recovery Act Funds and Reporting in Wisconsin    9/29/10                        7
                     (OSERS also designated as an action official)
                     (SAR 61, page 33)

                     Current Status: ODS/ISU informed us that the draft
                     PDL is in review process. OSERS/OSEP informed us
                     that it is developing a PDL.

A03J0010             Commonwealth of Pennsylvania Recovery Act Audit of      3/15/10                        8
                     Internal Controls over Selected Funds (OSERS, OS/
                     Risk Management Services (RMS), and OCFO also
                     designated as action officials) (SAR 60, page 39)

                     Current Status: Final PDL was uploaded to AARTS on
                     3/30/12. OSERS/OSEP informed us that it is
                     developing a PDL. The audit cannot be resolved until
                     all PDLs are entered into AARTS.

A04J0010             Tennessee Recovery Act Audit Internal Controls over     12/15/09                       2
                     Selected Funds (Recommendations were made to OESE
                     in conjunction with OSERS) (SAR 60, page 39)

                     Current Status: Final PDL was uploaded to AARTS on
                     3/30/12. OSERS/OSEP informed us that it is
                     developing a PDL. The audit cannot be resolved until
                     all PDLs are entered into AARTS.




44   Office of Inspector General Semiannual Report
                                                                                          Total
                                     Report Title                          Date                            Number of
Report Number                                                                           Monetary
                            (Prior SAR Number and Page)                   Issued                        Recommendations
                                                                                        Findings

A04K0001        Systems of Internal Controls over Selected Recovery      12/16/10      $2,051,000                16
                Act Funds in Puerto Rico (OCFO, OESE, and OSERS are
                also designated as action officials) (SAR 62, page 25)

                Current Status: ODS/ISU informed us that it is
                currently working with OESE and ODS/RMS to resolve
                the audit. OSERS/OSEP informed us that it is
                developing a PDL.

A05J0012        Systems of Internal Control Over Selected Recovery       2/23/10                                 4
                Act Funds in the State of Illinois (OSERS also
                designated as an action official) (SAR 60, page 40)

                Current Status: ODS/ISU informed us that its final
                PDL was uploaded into AARTS on 3/30/12.
                OSERS/OSEP informed us that it is developing a PDL.

A06J0013        Systems of Internal Control Over Selected Recovery       1/27/10                                 5
                Act Funds in the State of Texas (SAR 60, page 40)

                Current Status: ODS/ISU informed us that the final
                PDL was uploaded into AARTS on 3/26/12.
                OSERS/OSEP informed us that it is developing a PDL.

A06K0001        Systems of Internal Control Over Selected Recovery       9/29/10                                 8
                Act Funds in Louisiana (OSERS also designated as an
                action official) (SAR 61, page 34)

                Current Status: ODS/ISU informed us that it is
                currently working with OESE to resolve the audit.
                OSERS/OSEP informed us that it is developing a PDL.

A06K0002        Oklahoma: Use of Funds and Data Quality for Selected     2/18/11      $16,150,803                10
                Recovery Act Programs (OESE and OSERS are also
                designated as action officials) (SAR 62, page 25)

                Current Status: ODS/ISU informed us that it is
                currently working with OESE to resolve the audit.
                OSERS/OSEP informed us that it is developing a PDL.

A09J0006        State and Local Controls over Recovery Act Funds in      1/15/10                                 7
                California (OCFO and OSERS also designated as action
                officials) (SAR 60, page 40)

                Current Status: ODS/ISU informed us that it is
                currently working with OESE to resolve the audit.
                OSERS/OSEP informed us that it is developing a PDL.

A19J0001        Department’s Implementation of the State Fiscal          9/24/10                                 4
                Stabilization Fund Program (SAR 61, page 34)

                Current Status: ODS/ISU informed us that it is
                working to resolve this audit.

A19K0006        Department’s Process for Screening and Selecting Peer    8/16/10                                 1
                Reviewers for the Race to the Top Grant Program
                (SAR 61, page 34)

                Current Status: ODS/ISU informed us that all
                recommendations have been completed. However, the
                required documents needed for resolution of this
                audit were not in AARTS by 3/31/12.



                                                                            Office of Inspector General Semiannual Report   45
                                                                                                Total
                                           Report Title                            Date                        Number of
Report Number                                                                                 Monetary
                                  (Prior SAR Number and Page)                     Issued                    Recommendations
                                                                                              Findings

OESE

A02J0009             New York State LEAs Systems of Internal Control Over        2/17/10                          16
                     Recovery Act Funds (SAR 60, page 39)

                     Current Status: OESE informed us that the PDL is
                     currently under review. OSERS/OSEP informed us
                     that it is developing a PDL.

A02K0003             Kiryas Joel Union Free School District Title I, Part A of    2/2/11      $467,5674            5
                     the ESEA and IDEA Part B Expenditures (SAR 62,
                     page 25)

                     Current Status: OESE informed us that the PDL is
                     currently under review.

A03G0006             The Department’s Administration of Selected Aspects         2/22/07                           3
                     of the Reading First Program (OCFO also designated
                     as an action official) (SAR 54, page 31)

                     Current Status: OESE informed us that resolution
                     activities are in process.

A03H0010             Philadelphia School District’s Controls Over Federal        1/15/10     $138,769,898         27
                     Expenditures (OSERS, OSDFS, and OPE also designated
                     as action officials) (SAR 60, page 39)

                     Current Status: OESE informed us that PDL (3) is
                     currently under review. OSERS/OSEP informed us
                     that it is developing a PDL.

A03K0003             Commonwealth of Pennsylvania’s Local Educational            12/21/10     $443,4035           11 
                     Agencies’ Systems of Internal Controls over Recovery
                     Act Funds (OCFO, OESE, OSERS, and RMS are also
                     designated as action officials) (SAR 62, page 24)

                     Current Status: OESE informed us that the PDL is
                     under review. OSERS/OSEP informed us that the PDL
                     is in the clearance process.

A04G0012             Audit of Mississippi Department of Education’s               8/8/07      $3,192,395           4
                     Emergency Impact Aid Program Controls and
                     Compliance (SAR 55, page 28)

                     Current Status: OESE informed us that the PDL was
                     issued on 12/19/11. However, the required
                     documents needed for resolution of the audit were
                     not in AARTS prior to 3/31/12.

A04H0011             Puerto Rico Department of Education’s Administration        5/20/08      $189,011            10
                     of Contracts Awarded to Excellence in Education, Inc.
                     and the University of Puerto Rico’s Cayey Campus
                     (SAR 57, page 26)

                     Current Status: OESE informed us that resolution
                     activities are in process.




46   Office of Inspector General Semiannual Report
                                                                                          Total
                                     Report Title                           Date                           Number of
Report Number                                                                           Monetary
                            (Prior SAR Number and Page)                    Issued                       Recommendations
                                                                                        Findings

A04H0017        Puerto Rico Department of Education’s Administration      10/9/08       $821,714                 15
                of Title I Services Provided to Private School Students
                (SAR 58, page 31)

                Current Status: OESE informed us that the PDL is 

                currently under review. 


A04I0042        Virgin Islands Department of Education’s                  08/17/09       $4,304                  10
                Administration of Property Purchased with Federal
                Funds (SAR 59, page 42)

                Current Status: OESE informed us that the PDL is 

                currently under review. 


A04J0004        Virgin Islands Department of Education’s Current          11/13/09                                3
                Efforts to Address Prior Audit Findings
                (SAR 60, page 39)

                Current Status: OESE informed us that a PDL is 

                currently under review. OSERS/OSEP informed us

                that the joint PDL is currently under review. 


A04J0005        Puerto Rico Department of Education’s Award and           1/24/11     $15,194,468                10
                Administration of Personal Services Contracts (Office
                of Vocational and Adult Education (OVAE), OSDFS, and
                RMS are also designated as action officials) (SAR 62,
                page 25)

                Current Status: AARTS shows that OESE’s 

                administrative stay was approved by OCFO on

                2/12/2012. OESE informed us resolution activities 

                are in process. 


A05H0010        The School District of the City of Detroit’s Use of       7/18/08     $53,618,859                21
                Title I, Part A Funds Under the ESEA (SAR 57, page 26)

                Current Status: OESE informed us that resolution 

                activities are in process. 


A05I0016        Illinois State Board of Education’s Oversight of          09/23/09      $667,876                  9
                Subrecipients (OSERS also designated as an action
                official) (SAR 59, page 42)

                Current Status: OESE informed us that the PDL is 

                currently under review. OSERS/OSEP informed us

                that its PDL was issued on 10/29/2010. Closure letter

                was issued on 11/1/2011. However the required 

                documents needed for resolution of this audit are not 

                in AARTS. 


A06F0016        Arkansas Department of Education’s Migrant Education      8/22/06       $877,000                  2
                Program (SAR 53, page 25)

                Current Status: OESE informed us that resolution 

                activities are in process.


A06G0009        Audit of the Temporary Emergency Impact Aid for           9/18/07      $10,270,000                4
                Displaced Students Requirements at the Texas
                Education Agency and Applicable LEAs
                (SAR 55, page 29)

                Current Status: OESE informed us that resolution 

                activities are in process. 


                                                                            Office of Inspector General Semiannual Report   47
                                                                                           Total
     Report                               Report Title                         Date                      Number of
                                                                                         Monetary
     Number                      (Prior SAR Number and Page)                  Issued                  Recommendations
                                                                                         Findings

A06G0010            Louisiana Department of Education’s Compliance with       9/21/07   $6,303,000           4
                    Temporary Emergency Impact Aid for Displaced
                    Students Requirements (SAR 55, page 29)

                    Current Status: OESE informed us that resolution 

                    activities are in process. 


A06H0011            Adequacy of Fiscal Controls Over the Use of Title I,      4/14/09   $3,524,636           6
                    Part A Funds at Dallas Independent School District
                    (SAR 59, page 42)

                    Current Status: OESE informed us that the PDL is 

                    currently under review. 


OPEPD

A04J0003            Georgia Department of Education’s Controls Over           4/7/10                         9
                    Performance Data Entered in EDFacts (OSDFS, OESE,
                    and OSERS also designated as action officials) (SAR 61,
                    page 34)

                    Current Status: We did not receive a response from

                    OPEPD on this audit during this report period. 

                    OSERS/OSEP informed us that it is developing a PDL. 


OSERS

A02B0014            Audit of the Puerto Rico Vocational Rehabilitation        6/26/02   $15,800,000          5
                    Administration (SAR 45, page 18)

                    Current Status: OSERS/Rehabilitation Services
                    Administration informed us that the PDL is in the
                    review process.

OVAE

A06J0001            Arkansas’ Adult Education and Family Literacy Act         5/28/10    $583,403            7
                    Program (SAR 61, page 33)

                    Current Status: AARTS shows that OVAE’s
                    administrative stay was approved by OCFO on
                    3/28/2011. OVAE informed us that the PDL is
                    currently under review.

REPORTED IN PREVIOUS SARs

INSPECTION REPORTS

OGC

I13I0004            Inspection to Evaluate the Adequacy of the                4/21/08                        2
                    Department’s Procedures in Response to Section 306
                    of the FY 2008 Appropriations Act—Maintenance of
                    Integrity and Ethical Values Within the Department
                    (OGC was designated as the action official by OS)
                    (SAR 57, page 27)

                    Current Status: We did not receive a response from
                    OGC on this inspection during this reporting period.




48   Office of Inspector General Semiannual Report
                                                                                                        Total
                                                                                                                           Number of
                                                                                                       Monetary
                                                                                                                        Recommendations
                                                                                                       Findings

Totals                                                                                              $335,175,070                450

1
    Audit report A04K0006 identified the amount of $8,287 was other recommended recovery.
2
    Audit report A05K0005 figure includes $10,000 of “monetary recoveries” made during the audit and $5,728 of unsupported costs.
3
    Audit Report A09H0020 identified $728,651 in other recommended recoveries, $13,000,000 in annual better use of funds, and no
    questioned costs.
4
    Audit report A02K0003 identified an annual better use of funds in the amount of $5.2 million.
5
    Audit report A03K0003 identified the amount of $4,568 was “monetary recoveries” made during the audit.




                                                                                            Office of Inspector General Semiannual Report   49
Table 5-B: Summaries of Audit, Inspection, and Evaluation Reports Issued
           During the Previous Reporting Period Where Management
           Decision Has Not Yet Been Made
Section 5(a)(10) of the IG Act, as amended, requires a summary of each audit, inspection, or evaluation report
issued before the commencement of the reporting period for which no management decision has been made by
the end of the reporting period. These are the narratives for new entries. Details on previously issued reports
can be found in Table 5-A of this Semiannual Report.

 Report Title, Number, and
                                                                            Summary
        Date Issued

Elementary, Secondary, and Special Education Program-Related

Camden City Public School         We reviewed 50 of Camden’s ESEA contracts totaling more than $11.7 million and determined
District’s Administration of      that some of the expenditures were not allowable and were not spent in accordance with
Federal Education Funds           applicable laws and regulations. We found that Camden did not have a system to maintain
                                  and track contracts and, therefore, could not provide a universe of contracts funded with
ED-OIG: A02J0002                  ESEA funds, could not support more than $4.5 million for contracts that were missing or
                                  improperly executed, had inadequate documentation to support expenditures of more than
Issued: 6/6/2011                  $1 million for some of these contracts, and had inadequate documentation to support
                                  expenditures of more than $3 million. In addition, Camden did not perform cost or price
                                  analysis for competitive and noncompetitive contracts, did not comply with Federal
                                  requirements for competitive or sealed bids, and did not comply with State statutes. To
                                  address these weaknesses, we made 15 recommendations, including that the Department
                                  require New Jersey Department of Education (NJDOE) to direct Camden to develop and
                                  implement a contract administration system to properly track the administration of contracts,
                                  provide support to show that contracts were properly executed, and provide adequate
                                  supporting documentation for unsupported ESEA expenditures. The NJDOE concurred with
                                  12 of our 15 recommendations.

                                  Current Status: OESE informed us resolution activities are in process. OSERS/OSEP informed
                                  us that it is developing a PDL.


Camden City Public School         We found that Camden’s expenditures for supplemental educational services (SES) were not
District’s Administration of      always spent in accordance with applicable laws and regulations. Specifically, we determined
its Supplemental                  that Camden overpaid seven SES providers more than $392,300 in excess of rates approved by
Educational Services              the NJDOE. Camden paid the erroneous rates because it did not have proper controls to
Program                           ensure that SES providers were paid using NJDOE’s approved rates. We also found that NJDOE
                                  did not have adequate procedures for informing school districts that SES providers had been
ED-OIG: A02K0011                  removed from its approved provider list. As a result, Camden paid one SES provider more
                                  than $21,300 after it had been removed from NJDOE’s approved SES provider list. Further,
Issued: 5/4/2011                  NJDOE’s monitoring process was ineffective to ensure that payments to SES providers were
                                  allowable. In view of these issues, LEAs throughout New Jersey may be overpaying SES
                                  providers or receiving services from ineligible SES providers. Based on these findings, we
                                  made a number of recommendations, including that the Department require NJDOE to direct
                                  Camden to return to the Department more than $413,000 for unallowable SES expenditures.
                                  NJDOE did not concur with all of our recommendations.

                                  Current Status: OESE informed us resolution activities are in process.




50   Office of Inspector General Semiannual Report
Report Title, Number, and
                                                                       Summary
       Date Issued


Recovery Act-Related External Reports

Milwaukee Public Schools:    We determined that Milwaukee Public Schools (MPS) generally used Recovery Act funds in
Use of Funds and Data        accordance with applicable laws, regulations, and guidance, and that its reported jobs and
Quality for Selected         subaward data were also accurate. However, we also found that MPS did not properly track
Recovery Act Programs        SFSF program funds as required, as it did not adjust its records to account for some
                             $75.8 million of State Fiscal Stabilization Fund (SFSF) program funds. MPS also needed to
ED-OIG: A02K0009             improve its internal controls over Federal funds, including Recovery Act funds, because we
                             found that it did not follow its own procedures for obtaining semiannual employee
Issued: 4/21/2011            certifications, preapproving journal entries, and tracking its computer equipment. Based on
                             our findings, we made a number of recommendations to the Wisconsin Department of Public
                             Instruction and the Department of Administration, neither of which concurred with all of our
                             recommendations.

                             Current Status: OESE informed us that the resolution activities are in process. OSERS/OSEP
                             informed us that it is developing a PDL. ODS/ISU is the Lead Office. ODS/ISU informed us
                             that the draft PDL is in review process.

South Carolina: Use of       We found that Recovery Act funds were generally used in accordance with applicable laws,
Funds and Data Quality for   regulations, and guidance at the entities reviewed; however, we did identify internal control
Selected Recovery Act        weaknesses related to cash management and contract procurement at the South Carolina
Programs                     Department of Education (SCDOE) and at two of the LEAs reviewed—Charleston County School
                             District and Spartanburg County School District. Specifically, SCDOE did not assess cash needs
ED-OIG: A04K0005             of subgrantees before it advanced Recovery Act funds, did not monitor spending to determine
                             whether the advanced funds were spent in a timely manner, did not have policies and
Issued: 4/20/2011            procedures to remit interest earned on Federal cash advances to the Department, and had
                             insufficient policies and procedures over the Recovery Act claims reimbursement process. We
                             also found that Charleston and Spartanburg did not have documentation available to support
                             that Recovery Act funded contracts were awarded and administered in accordance with
                             district, State, and/or Federal procurement requirements. Based on these findings, we made
                             recommendations to improve these practices, all of which SCDOE concurred with.

                             Current Status: OESE informed us resolution activities are in process. OSERS/OSEP informed
                             us that it is developing a PDL.

South Carolina Governor’s    Our review of the use of Recovery Act funds by the South Carolina Governor’s Office, the
Office: Use of Funds and     University of South Carolina, and the South Carolina Department of Corrections (SCDC)
Data Quality for Selected    identified a minor issue of noncompliance: SCDC used approximately $8,300 of the Recovery
American Recovery and        Act funds to pay for unallowable expenditures. We recommended that the Governor’s Office
Reinvestment Act Programs    reobligate those funds to allowable costs. We also found that the Governor’s Office reported
                             inaccurate job data. Specifically, the four State agencies reviewed reported a total of
ED-OIG: A04K0006             28.17 full-time equivalent (FTE) jobs created or retained in the March 31, 2010, quarterly
                             report to the Governor’s Office. However, the Governor’s Office reported four FTE jobs for
Issued: 8/23/2011            the same reporting period to FederalReporting.gov. In addition, for the quarter ending
                             June 30, 2010, the Governor’s Office reported 14 jobs as created or retained; however, the
                             State agencies reviewed did not report any jobs created or retained for the same period. We
                             did not recommend correcting the reported number of jobs; per the OMB, changes to prior
                             reports cannot be initiated for the “number of jobs” field.

                             Current Status: OESE informed us resolution activities are in process. ODS/ISU informed us
                             that it is currently working to resolve the audit.




                                                                              Office of Inspector General Semiannual Report   51
 Report Title, Number, and
                                                                            Summary
        Date Issued

Illinois: Use of Funds and        We found that Illinois took proactive measures to provide reasonable assurance that it and its
Data Quality for Selected         subrecipients complied with Recovery Act requirements, and the subrecipients we reviewed
Recovery Act Programs             generally expended Recovery Act funds in accordance with applicable laws, regulations, and
                                  guidance. However, we also determined that the State could do more to ensure the
ED-OIG: A05K0005                  appropriate use of Recovery Act funds and the quality of data reported to the Federal
                                  Government. Specifically, we found that the Illinois State Board of Education and its
Issued: 6/9/2011                  subrecipients did not always follow Federal cash management requirements; did not always
                                  ensure that data reported to the Federal Government were accurate, reliable, and complete;
                                  and three of the subrecipients reviewed (Waukegan Public Schools, East Saint Louis Public
                                  Schools, and Chicago Public Schools) charged a small amount of unallowable or inadequately
                                  documented costs to Recovery Act grants. We recommended that Illinois and its subrecipients
                                  strengthen their systems of internal control to provide reasonable assurance that the time
                                  elapsing is minimized between the transfer of funds by the Illinois State Board of Education
                                  and disbursement by the subrecipients and that Illinois collects and reports complete,
                                  reliable, and accurate Recovery Act data. The Illinois State Board of Education did not fully
                                  agree with our recommendation.

                                  Current Status: OESE informed us that resolution activities are in progress. OSERS/OSEP
                                  informed us that it is developing a PDL.

Louisiana: Use of Funds           Although the four LEAs we reviewed—Jefferson School District, East Baton Rouge School
and Data Quality for              District, Calcasieu School District, and Recovery School District—generally used Recovery Act
Selected Recovery Act             funds in accordance with applicable laws, regulations, and guidance, we identified more than
Programs                          $179,700 in unsupported payroll expenses. We also found that the Louisiana Department of
                                  Education (LDE) and the LEAs reviewed did not ensure that data reported were accurate,
ED-OIG: A06K0003                  reliable, and complete: LDE and the Jefferson, East Baton Rouge, and Calcasieu School
                                  Districts all had data quality errors in the expenditure data that were reported by LDE to
Issued: 4/11/2011                 FederalReporting.gov for the first four Recovery Act reporting periods, and they incorrectly
                                  reported jobs saved or created to LDE. In addition, LDE did not have internal controls to
                                  ensure that policies or procedures were followed to verify and report required Recovery Act
                                  data elements or for reporting errors identified after submission of reports. We made a
                                  number of recommendations to address these issues, including that the LDE provide
                                  documentation to adequately support more than $179,700 in Recovery Act payroll
                                  expenditures or return those funds to the Department. The LDE generally agreed with our
                                  recommendations.

                                  Current Status: OESE informed us resolution activities are in process. OSERS/OSEP informed
                                  us that it is developing a PDL. ODS/ISU informed us that it is currently working with OSERS
                                  and OESE to resolve the audit.

Missouri: Use of and              We found that the subrecipients reviewed—the Kansas City School District, the St. Louis Public
Reporting on Selected             Schools, and the University of Missouri—might not have used Recovery Act funds for authorized
Recovery Act Program              activities and did not always report accurate, reliable, and complete data. Specifically, they
Funds                             did not properly account for $59.8 million in Recovery Act SFSF monies; did not always follow
                                  Federal cash management requirements; and data that Missouri reported to the Federal
ED-OIG: A07K0002                  Government were not always accurate, reliable, and complete. To reduce the likelihood of
                                  such problems occurring in the future, we recommended that Missouri and its subrecipients
Issued: 6/7/2011                  improve their systems of internal control to provide reasonable assurance that SFSF funds are
                                  accounted for properly; cash management procedures are aligned with Federal regulations;
                                  and data reported to the Federal Government are accurate, reliable, and complete. Missouri
                                  officials generally concurred with our recommendation.

                                  Current Status: OESE informed us resolution activities are in process. OSERS/OSEP informed
                                  us that it is developing a PDL. ODS/ISU is the Lead Office. ODS/ISU informed us that it
                                  received auditee response to request for additional documentation in 3/12. PDL is being
                                  drafted.




52   Office of Inspector General Semiannual Report
Report Title, Number, and
                                                                         Summary
       Date Issued

Utah: Use of Funds and         We found that the State and local recipients and subrecipients reviewed did not consistently
Data Quality for Selected      use Recovery Act funds in accordance with applicable laws, regulations, and guidance.
Recovery Act Programs          Specifically, we found that the University of Utah and the Utah Housing Corporation (UHC)
                               made improper charges to the SFSF Government Services grant totaling more than $65,000,
ED-OIG: A09K0001               and UHC also did not remit interest earned on Recovery Act funds that were received before
                               the funds were needed to cover program costs. We identified more than $1.3 million in
Issued: 5/13/2011              improper charges and internal control weaknesses at the Nebo School District and found that
                               neither Nebo nor the Granite School District maintained sufficient documentation to support
                               personnel costs. We also found significant data quality deficiencies at all entities reviewed,
                               and as a result, the data for the number of jobs, vendor information, and amount of funds
                               spent that were reported to Recovery.gov for the reporting period ending December 31, 2009,
                               were not reliable. The Utah State Office of Education also improperly included Federal
                               expenditures and certain inappropriate State and local expenditures in its Title I school-by-
                               school per-pupil expenditures report submitted to the Department. As a result, the report
                               does not accurately portray State and local expenditures at the school level and cannot be
                               relied upon. To address the weaknesses identified, we made 15 recommendations. A number
                               of the entities reviewed stated they had corrected the deficiencies or were in the process of
                               implementing corrective actions.

                               Current Status: OESE informed us resolution activities are in process. OSERS/OSEP informed
                               us that it is developing a PDL. ODS/ISU informed us that it is currently working with OESE to
                               resolve the audit.

California: Use of Funds and   Although the three LEAs we reviewed generally used Recovery Act funds in accordance with
Data Quality for Selected      applicable laws, regulations, and guidance, we did identify instances of noncompliance with
Recovery Act Programs          applicable Federal requirements by the Fresno Unified School District and the San Diego
                               Unified School District that resulted in improper charges of approximately $23,000 to the Title
ED-OIG: A09K0002               I Recovery Act grant. We also found that the California Department of Education (CDE)
                               reported jobs data that were not reliable for the reporting period ending December 31, 2009.
Issued: 4/28/2011              Control weaknesses in its processes for compiling, processing, and reviewing the jobs data
                               could affect the reliability of future reports. To address the weaknesses identified, we made
                               a number of recommendations, including that CDE implement appropriate data quality
                               controls to ensure that future jobs data are accurate, complete, and consistent with
                               applicable guidance. CDE did not state whether it agreed with our findings and
                               recommendations.

                               Current Status: OESE informed us resolution activities are in process. OSERS/OSEP informed
                               us that it is developing a PDL. ODS/ISU informed us that it is currently working with OESE to
                               resolve the audit.




                                                                                 Office of Inspector General Semiannual Report   53
Table 6: Statistical Profile: October 1, 2011, through March 31, 2012


                                                                   October 1, 2011–
                             Audits, Inspections, Other Products
                                                                    March 31, 2012

Audit Reports Issued                                                     13

Inspection Reports Issued                                                 2

Questioned Costs (Including Unsupported Costs)                       $43,947,495

Recommendations for Better Use of Funds                                  $0

Other Products Issued                                                     4

Reports Resolved By Program Managers                                     20

Questioned Costs (Including Unsupported Costs) Sustained             $256,097,686

Unsupported Costs Sustained                                          $124,413,844

Additional Disallowances Identified by Program Managers                $97,429

Management Commitment to the Better Use of Funds                         $0

Investigative Cases Opened                                               68

Investigative Cases Closed                                               75

Cases Active at the End of the Reporting Period                          432

Prosecutorial Decisions
                                                                         52
    Accepted
                                                                         34
    Declined

Indictments/Informations                                                 64

Convictions/Pleas                                                        52

Fines Ordered                                                         $320,078

Restitution Payments Ordered                                          $7,559,928

Civil Settlements/Judgments (number)                                      2

Civil Settlements/Judgments (amount)                                  $1,475,000

Recoveries                                                            $4,556,524

Forfeitures/Seizures                                                  $1,044,233

Estimated Savings                                                     $1,010,636

Suspensions Referred to Department                                        6

Debarments Referred to Department                                        22



54   Office of Inspector General Semiannual Report
  Abbreviations and Acronyms Used in this Report
AARTS        Audit Accountability and Resolution Tracking System
ALSDE        Alabama State Department of Education
Camden       Camden City Public School District
CDE          California Department of Education
CIGIE        Council of Inspectors General for Integrity and Efficiency
Department   U.S. Department of Education
ECASLA       Ensuring Continued Access to Student Loans Act of 2008
EDUCATE      Education Department Utility for Communications, Applications,
               and Technology Environment

ESEA         Elementary and Secondary Education Act of 1965, as Amended
FFEL         Federal Family Education Loan
FISMA        Federal Information Security Management Act of 2002
FSA          Federal Student Aid
FTE          Full-Time Equivalent
GAO          Government Accountability Office
HEA          Higher Education Act of 1965, as Amended
IDEA         Individuals with Disabilities Education Act
IHE          Institution of Higher Education
IPA          Independent Public Accountant
IPERA        Improper Payments Elimination and Recovery Act of 2010
LDE          Louisiana Department of Education
LEA          Local Educational Agency
MPS          Milwaukee Public Schools
NJDOE        New Jersey Department of Education
OCFO         Office of the Chief Financial Officer
OCIO         Office of the Chief Information Officer
ODS          Office of the Deputy Secretary
ODS/ISU      Office of the Deputy Secretary Implementation and Support Unit
OESE         Office of Elementary and Secondary Education
OGC          Office of General Counsel
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPE          Office of Postsecondary Education
OPEPD        Office of Planning, Evaluation and Policy Development
OSDFS        Office of Safe and Drug-Free Schools



                                                       Office of Inspector General Semiannual Report   55
     Abbreviations and Acronyms Used in this Report (continued)
             OSEP                       Office of Special Education Programs
             OSERS                      Office of Special Education and Rehabilitative Services
             OVAE                       Office of Vocational and Adult Education
             PAG                        Post Audit Group
             PDL                        Program Determination Letter
             QCR                        Quality Control Review
             Recovery Act               American Recovery and Reinvestment Act of 2009
             Recovery Board             Recovery Accountability and Transparency Board
             RMS                        Risk Management Services
             SAR                        Semiannual Report to Congress
             SCDC                       South Carolina Department of Corrections
             SCDOE                      South Carolina Department of Education
             SEA                        State Educational Agency
             SES                        Supplemental Educational Services
             SFSF                       State Fiscal Stabilization Fund
             SIG                        School Improvement Grant
             Stimulus Funds             Recovery Act and Education Jobs Funds
             TIF                        Teacher Incentive Fund
             Title IV                   Title IV Higher Education Act of 1965
             TIVAS                      Title IV Additional Servicer
             Treasury                   U.S. Department of the Treasury
             UHC                        Utah Housing Corporation




56   Office of Inspector General Semiannual Report
                  FY 2012 Management Challenges
The Reports Consolidation Act of 2000 requires the OIG to identify and summarize the most
significant management challenges facing the Department each year. Below are the
management challenges OIG identified for FY 2012.

   1. 	Improper Payments, meeting all new requirements and intensifying efforts to
      prevent, identify, and recapture improper payments.

   2. 	Information Technology Security, including management, operational, and technical
      security controls to adequately protect the confidentiality, integrity, and availability
      of its systems and data.

   3.	 Oversight and Monitoring, including Federal student aid program participants,
      distance education, Recovery Act, grantees, and contractors.

   4. 	Data Quality and Reporting, including program data and Recovery Act reporting
      requirements.

For a copy of our FY 2012 Management Challenges report, visit our Web site at
www.ed.gov/oig.




                                                  Images used with permission from Microsoft.
Anyone knowing of fraud, waste, or abuse involving U.S. Department of
Education funds or programs should call, mail, or electronically submit
their concerns to the Office of Inspector General.

Call toll-free:                    Or write:
Inspector General Hotline          Inspector General Hotline
1-800-MISUSED                      U.S. Department of Education
(1-800-647-8733)                   Office of Inspector General
                                   400 Maryland Ave., S.W.
                                   Washington, D.C. 20202

Electronic submission (internet):
http://www2.ed.gov/about/offices/list/oig/index.html

Your report may be made anonymously or in confidence.

The Department of Education’s mission is to promote student
achievement and preparation for global competitiveness by
fostering educational excellence and ensuring equal access.

www.ed.gov
